<html>
<title> - THE NEED TO IMPLEMENT WHTI TO PROTECT U.S. HOMELAND SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                 THE NEED TO IMPLEMENT WHTI TO PROTECT 
                         U.S. HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2006

                               __________

                           Serial No. 109-117

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-987                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                         Allison Beach, Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              JUNE 8, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1

                               WITNESSES

Ms. Janice L. Kephart, Principal and Managing Member, 9/11 
  Security Solutions, LLC
  Oral Testimony.................................................     4
  Prepared Statement.............................................     7
Mr. David Harris, Director, Insignis Strategic Research, Inc.
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43
Mr. Paul Rosenzweig, acting Assistant Secretary for Policy 
  Development, U.S. Department of Homeland Security
  Oral Testimony.................................................    54
  Prepared Statement.............................................    56
Mr. Roger Dow, President and Chief Executive Officer, Travel 
  Industry Association of America
  Oral Testimony.................................................    59
  Prepared Statement.............................................    62

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    87
Prepared Statement of the Honorable Louise M. Slaughter, a 
  Representative in Congress from the State of New York..........    88
Letter from Corey P. Saylor, Government Affairs Director, Council 
  on American Islamic Relations (CAIR)...........................
Prepared Statement of Business for Economic Security, Tourism & 
  Trade (BESTT)..................................................    97
Prepared Statement of the Honorable Brian Higgins, a 
  Representative in Congress from the State of New York..........   104
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................   105
Prepared Statement of the Honorable Ted Poe, a Representative in 
  Congress from the State of Texas...............................   105


      THE NEED TO IMPLEMENT WHTI TO PROTECT U.S. HOMELAND SECURITY

                              ----------                              


                         THURSDAY, JUNE 8, 2006

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:37 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable John N. 
Hostettler (Chairman of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    Good morning.
    Until a few days ago, few among us were particularly aware 
that Canada hosts an abundance of terrorists and as many as 50 
terrorist organizations. While this is new information to most 
of us, the Canadian press has been full of such stories for at 
least the past 6 years.
    Even as a highly regarded Canadian journalist authored 
three books on the topic of Canada's benign neglect of 
terrorists, all of which have been bestsellers in Canada, 
Americans have been preoccupied with the southwest border. It 
is to be expected that the visual phenomena of hundreds of 
thousands of illegal aliens crossing the arid Southwest, often 
in plain view of Border Patrol, and sometimes TV cameras as 
well, is something that captures the national attention.
    But, today, we turn to our other borders, even more poorly 
guarded than the southwestern border. In fact, it is fair to 
say that the Canadian border is virtually unguarded. Canadians, 
as well as those who are imposters pretending to be Canadians 
or returning American tourists, roll through our border ports 
of entry with little or no document inspections.
    In fact, there are many who continue to advocate that all 
those who claim to be Canadian and U.S. citizens should keep 
moving through the border checkpoints at 40 miles an hour or 
so. I don't agree with that point of view.
    I hope the arrests in Canada of 17 jihadists, mostly home-
grown, will cause the opponents of secure borders to 
reconsider, because the threat won't go away soon. It is 
important to understand that we are dealing with terrorists who 
don't appear to their neighbors or family members to be 
terrorists.
    Very much like the London subway bombers, they appear to be 
nice young men, who have good manners. According to Canadian 
news accounts published over the past few days, those arrests 
included recent converts to Islam, as well as five juveniles.
    Some Canadian police officials describe the subjects as 
being from across the strata of society. If they are typical of 
many Canadian first- and second-generation immigrants, then the 
arrests demonstrate an unsuccessful adoption of traditional 
Canadian values, or at least a lack of assimilation by many 
north of the U.S. border.
    I expect we all know that cultural assimilation in Canada, 
or in the United States, is much more than learning the English 
language. South Toronto, like those parts of London that are 
host to the radical imams who influenced the 9/11 terrorists 
and the shoe bomber has people who adhere to a militant 
understanding of Islam.
    Toronto has a very large South Asian community, and the 
oldest man among those arrested, Qayyum Abdul Jamal, is the 
imam of the Al Rahman Koran Learning Center, a local mosque. 
Although the Canadian authorities have not provided details of 
the proceeding investigation, news accounts state that some of 
the group have been under surveillance since 2004.
    And we need to acknowledge that we are dealing with 
terrorists on both sides of the border. While the Canadian 
Mounties already had their local terrorists under 
investigation, the Canadian arrests were connected to 
intelligence gained by the FBI during the investigation and 
eventual arrest of two young jihadists resident in the United 
States, one of whom had gone to high school in Canada before 
moving here.
    I do believe we in the United States have a much more clear 
focus on the problem of terrorism and have moved beyond denial 
that our own citizens are capable of terrorism. That doesn't 
seem to be the case north of the border.
    The brother of one of the men arrested was quoted this week 
in the Canadian Press newspaper as saying, ``He is not a 
terrorist. Come on. He is a Canadian citizen.''
    Let us look at a few details of the violent acts the 
arrested Canadian citizens are reported to have planned. 
According to Gary Batasar, the lawyer for Steven Chand, 
Canadian prosecutors had provided an eight-page summary of the 
charges against his client and 16 other men arrested last week.
    These charges included ``plotting to storm the parliament 
buildings, take hostages, make demands to remove Canadian 
troops from Afghanistan and to free Muslim prisoners, planning 
to behead hostages if his demands weren't met and to behead the 
prime minister. The last thing was that they were going to 
storm the Canadian Broadcasting Corporation's building downtown 
in Toronto to take over communications to broadcast their 
message.''
    Police said the men were planning to build a simple but 
effective bomb, using fertilizer and diesel fuel, and were in 
an advanced stage of planning two attacks: a truck bombing to 
destroy a significant building and an attack involving opening 
fire on a crowded public place.
    It was reported on Wednesday that Prime Minister Harper was 
laughing off the alleged assassination plot. It is too bad that 
his public statements recently about the Western Hemisphere 
Travel Initiative also appear to laugh off the U.S. 
Government's intent to improve the security of all our borders, 
that with Canada no less than the others.
    For example, it was recently reported in the context of 
meetings between Canadian Public Safety Minister Stockwell Day 
and our Secretary Chertoff that Canadian and U.S. officials are 
working on a third alternative, neither passport nor national 
I.D. card that would allow Canadians to move freely into the 
United States after the Western Hemisphere Travel Initiative's 
more stringent rules come into place.
    In fact, Public Safety Minister Stockwell Day said he has 
received assurances from Homeland Security Secretary Michael 
Chertoff that an alternative Canadian document, as yet to be 
determined, would be acceptable. Maybe that is why Prime 
Minister Harper appears so lighthearted with regard to the 
WHTI. He knows something that we don't about the 
Administration's plans.
    If we needed a clear case for why there needs to be a 
dramatic increase in security along the northern border, and 
that means an uncompromising implementation of the Western 
Hemisphere Travel Initiative at the earliest date possible, the 
example of this past week's terrorist arrests in Toronto is 
very dramatic.
    With the 12 million or more illegal aliens resident in the 
United States, many of them carrying valid driver's licenses, 
it is clear that at least at the border, we need to 
authenticate who is a U.S. citizen and who is not before 
letting people re-enter the United States. And no lower 
standard should be set for Canadian citizens who wish to enter 
the United States.
    At this time, if any other Members of the panel have an 
opening statement, I would be glad to--without objection, all 
Members' opening statements will be made a part of the record.
    At this time, the Subcommittee will take a short recess to 
vote on a number of provisions in the House of Representatives, 
and we will return subsequently to reconvene the hearing. We 
are recessed.
    [Recess.]
    Mr. Hostettler. The Subcommittee will come to order.
    I want to thank the panel of witnesses for your indulgence 
as we have interrupted the hearing for the votes.
    I would like to now introduce our panel.
    Janice Kephart is a nationally recognized border security 
expert, specializing in the nexus between immigration and 
counterterrorism issues. She provided text, substantive 
footnotes and developed key recommendations on border security, 
along with her teammates, that appear in the 9/11 Commission's 
final report, and is the key author of the 9/11 Commission's 
staff report, ``9/11 and Terrorist Travel.'' Prior to her work 
on the commission, Ms. Kephart served as counsel to the Senate 
Judiciary Subcommittee on Terrorism, Technology and Government 
Information.
    David Harris is director of Insignis Strategic Research, 
Incorporated, a counterterrorism, national security and 
international risk analysis consulting group. He has trained 
police, military and other security personnel in intelligence 
collection and analysis. Mr. Harris is also active in academia, 
lecturing occasionally in national security and intelligence 
policy and defense policy at the Carleton University School of 
Public Administration's graduate program. He is the former 
chief of strategic planning of the Canadian Security 
Intelligence Service.
    In his position as counselor for the assistant secretary 
for the policy directorate and acting assistant secretary for 
policy development at the United States Department of Homeland 
Security, Paul Rosenzweig has responsibility for developing 
policy, strategic plans and international approaches on 
homeland security issues, including border security and 
immigration issues. Mr. Rosenzweig is also an adjunct professor 
of law at George Mason University School of Law. He serves on 
the editorial board of the ``Journal of National Security Law 
and Policy'' and the District of Columbia Bar Legal Ethics 
Committee.
    Roger Dow is president and chief executive officer of the 
Travel Industry Association of America, or TIA, a position he 
assumed on January 1, 2005, with 2,000 organizations as 
members. TIA is the national umbrella organization that 
represents and speaks for all segments of the $600 billion U.S. 
travel and tourism industry in promoting and facilitating 
increased travel to and within the United States.
    Prior to joining TIA, Mr. Dow was senior vice president, 
global and field sales, for Marriott International, leading 
Marriott's 10,000-person worldwide sales organization. He 
worked for that company for 34 years. Mr. Dow also served his 
country in Vietnam, where he received a Bronze Star, among 
other citations, for his duties with the 101st Airborne 
Division.
    As is customary with the Committee, I will ask the 
witnesses to please rise and take the oath.
    And raise your right hands. Thank you. Do you solemnly 
swear that the testimony you will give before the Subcommittee 
will be the truth, the whole truth and nothing but the truth, 
so help you God?
    Thank you. You may be seated.
    Please let the record reflect that the witnesses responded 
in the affirmative.
    Once again, thank you for being here today. You will notice 
a series of lights in front of you. Without objection, your 
entire written statement will be made a part of the record, and 
if you can keep your opening statements, oral opening 
statements, as close to 5 minutes, it would be greatly 
appreciated.
    Ms. Kephart, you are recognized.

TESTIMONY OF JANICE L. KEPHART, PRINCIPAL AND MANAGING MEMBER, 
                  9/11 SECURITY SOLUTIONS, LLC

    Ms. Kephart. Thank you, Chairman Hostettler, for having me 
here today. I very much appreciate your interest in assuring 
that the Western Hemisphere Travel Initiative, otherwise known 
as WHTI, gets implemented in a timely manner. As we begin our 
discussion today, we need to retrace our steps as to why WHTI 
was passed into law in the first place and the national 
security threat it seeks to mitigate.
    What is that threat? It is quite simple, really. It evolved 
from the intense 14-month investigation of the 9/11 Commission 
border team, with whom I was so lucky to serve. The threat is 
simply this: that most often, terrorists must cross and travel 
over borders to conduct their operations. To do so, they 
exploit any loophole in a border apparatus they can.
    An extremely large loophole that still exists today here in 
the U.S., and which WHTI seeks to close, is the policy and 
practices that permit anyone claiming to be from the Western 
hemisphere to present easily forged documents, or nothing at 
all, to enter the U.S. The most commonly used documents include 
a birth certificate, thousands of varieties; a driver's 
license, over 200 varieties in the U.S.; or, as is the case 
with 40 percent of Canadians that pass over our land borders, 
absolutely nothing.
    We know birth certificates and driver's licenses are highly 
subject to fraud. D.C. sniper John Lee Muhammad and LAX 
millennium bomber Ahmed Ressam both made their living on 
stealing, making, selling fake U.S. or Canadian documents prior 
to coming to the U.S. for their criminal acts.
    And we know that document forgers are rampant in the U.S. A 
story in yesterday's Seattle Post, for example, describes a 
brazen document forger who makes his living in that city off of 
fake driver's licenses and other U.S. documents but, 
interestingly enough, not passports.
    While no travel document is perfect, passports have 
features other documents do not. They denote citizenship. They 
can be vetted through criminal and terror watch lists and 
alerts. National records are maintained of the passports' 
owners, so reported lost and stolen passports can be better 
tracked internationally. And they have particular security 
features more difficult to forge.
    From the terrorist's vantage point, why bother with 
acquiring a lost or stolen passport to get into the U.S., when 
you can simply buy a driver's license off the street that will 
get you across the borders just fine. To the terrorists, the 
U.S. makes entry at Canadian and other land ports of entry 
easy, so why not take advantage of it?
    Let me be clear, though, as I have been in previous 
testimony on the subject, that assuring facilitation of trade 
and tourism is important. As WHTI is currently envisioned, it 
will finally allow border inspectors to focus on high-risk 
travelers, while low-risk travelers can get streamlined and 
efficient processing, if they seek to do so.
    This way--security and facilitation equally, providing the 
balance the two policy objectives should. And where does a 
terrorist end up with WHTI? With a difficult choice. Under 
WHTI, the terrorist can no longer present an unauthenticated 
document containing unverifiable information. Instead, the 
terrorist must choose, risk getting caught by attempting an 
illegal entry, or risk being detected by U.S. authorities at 
the border, presenting a passport.
    WHTI makes it more likely the terrorists will expose 
themselves to authorities, and thus gives the American people a 
better chance at staying safe and keeping foreign terrorists 
who want to blow up significant buildings and chop off heads as 
stated in yesterday's stories about the 17 arrested in Toronto, 
out of the United States.
    So this brings us to the next question: Are the 17 from 
Toronto the be all, end all, of threats from Canada? No. CSIS, 
the Canadian intelligence agency, tells us that Canada has a 
significant terrorist community, about 50 terror organizations 
actively operating there, and about 350 individuals being 
actively watched. And, according to Jack Cooper, CSIS's deputy 
director today, Canada's problem is growing.
    Only 17 were caught in Canada last weekend, and we don't 
even know if they were some of the 350 Canadian intelligence 
already knew about. Terrorist financing more than doubled in 
Canada last year, to the tune of $2 billion. Canadian anti-
terror legislation passed after 9/11 is not retroactive and, 
until this past weekend, had only one indictment.
    Therefore, those Canadians trained in Afghan camps prior to 
9/11 remain at large. We know that the FBI seeks out a number 
of naturalized Canadian citizens that have $5 million bounties 
on them. For example, Abdul Rachman Judai, originally slated to 
participate in the 9/11 plot and, when he dropped out, to be 
part of a second wave of attacks, is wanted today. And there 
was also Amir al-Maati, a trained pilot and Canadian citizen 
who has vowed to crash a plane into a U.S. building.
    And then from south of the border, we have significant 
issues with alien smuggling, document forgery and bastions of 
known terrorist activity and support in the Caribbean and 
throughout South America for terrorist activity.
    The point is, we don't want these people to get into the 
U.S. We want to see them found. With WHTI in place, terrorists 
and criminals are less likely to try and get in, and, if they 
do, we are more likely to catch them. That means what the 
American people end up with is both security and facilitation, 
and the terrorists have a harder time traveling to carry out 
their missions.
    Thank you.
    [The prepared statement of Ms. Kephart follows:]

                Prepared Statement of Janice L. Kephart

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Hostettler. Thank you, Ms. Kephart.
    Mr. Harris?

             TESTIMONY OF DAVID HARRIS, DIRECTOR, 
               INSIGNIS STRATEGIC RESEARCH, INC.

    Mr. Harris. Thank you, Chairman Hostettler. I would also 
like to thank, if I may, the----
    Mr. Hostettler. Mr. Harris, could you pull the microphone a 
little closer to you there?
    Mr. Harris. Thank you, Mr. Chairman.
    Mr. Hostettler. Very good.
    Mr. Harris. I would thank the Subcommittee and also, of 
course, would like to thank the Canadian Coalition for 
Democracies that has sponsored me. I am a senior fellow for 
terrorism and national security with that organization.
    In a previous appearance before this Subcommittee, shortly 
before 9/11, I cautioned that much would have to be done to 
fight Canada's drift into terror-haven status. Six years later, 
albeit with some refinements, including the Anti-Terrorism Act, 
Canada is heavily infiltrated by terrorists. Canada is a 
recruiting, planning, financing and launch point for 
international terrorism, and Canada is most certainly a target 
of terrorism.
    Now, with particular reference to our leading terror 
threat, Islamic extremism, I will suggest why this has come 
about and note the glimmer of hope that has recently emerged.
    In 1998, the CSIS director testified before Canada's Senate 
that 50 terror organizations, including the world's most 
notorious, were present in Canada. In terms of numbers of 
terror groups, this made us number two in the world, after the 
United States.
    By 9/11, the previous 20 years had transformed Canada from 
a terrorist backwater to a significant piece on terror's 
international chessboard. Testifying before a Canadian Senate 
committee, a CSIS official referred to in earlier testimony, 
last week warned of Canadian residents who are ``graduates of 
terrorist training camps and campaigns, including experienced 
combatants from conflicts in Afghanistan, Bosnia, Chechnya and 
elsewhere.''
    And he added that Canadian citizens or residents have been 
implicated in terrorist attacks and conspiracies elsewhere in 
the world. He referred to the young man, Mr. Khawaja, in 
Ottawa, who is the first to be charged under the new Anti-
Terrorism Act legislation, a case that promises to draw world 
attention for its implications.
    ``Others,'' said the deputy director of CSIS, ``have been 
involved in plots against targets in the United States, 
Lebanon, Saudi Arabia, Israel, Singapore, Pakistan and other 
countries.'' The examples are many. We have heard of the group 
Fatah Kamel. That helped make Montreal the hub of international 
GIA Algerian Islamic terrorist activity.
    Even as a failed refugee claimant, GIA terrorist and group 
Fatah Kamel member Ahmed Ressam, of course, had prowled Canada, 
using false I.D. An alert American border guard in 1999 was the 
only obstacle between Ressam's explosives-packed car at the 
Canadian frontier and devastation at his target, L.A. 
International Airport. 9/11 would have come early.
    Canada's immigration and refugee system has been a big part 
of the problem. In per capita terms, Canada takes in double the 
number of immigrants and three or four times the number of 
refugees as the United States. Canada cannot effectively, in my 
respectful view, screen and integrate such numbers, and we have 
seen the proof. Sober minds regard the immigration system as 
largely a corrupt vote-importing scheme.
    But the problem has gone well beyond immigration and is 
metastasizing into the terrible phenomenon of home-grown 
terror. This term, of course, refers to longstanding Canadian 
residents and citizens who have turned traitor and marked their 
neighbors and society for death. The chilling possibilities 
emerged since Friday's massive police raids in the Toronto 
area, and these netted youthful Muslims who allegedly had three 
times as much ammonium nitrate fertilizer as was used in the 
Oklahoma City blast.
    The Toronto detainees were Canadian residents and, for the 
most part, apparently Canadian citizens. Saudi money, Saudi-
trained and inspired clerics, the Internet and other things, 
seem to help contribute to the risk of turning some Muslim 
youth against their fellow Canadians.
    There are questionable organizations, like the Canadian 
Council on American-Islamic Relations, CAIR-Canada, a chapter 
of the controversial Washington-based Council on American-
Islamic Relations, that have alienated many moderate Muslims 
with unreliable statistics and breathless allegations of anti-
Muslim behavior.
    In light of recent arrests, CAIR-Canada has apparently 
embarked now on a charm offensive. But 6 years after 9/11, it 
has yet to condemn publicly, by name, certain Islamic terrorist 
groups, not even Hezbollah, which has reliably said to have 
done targeting reconnaisance on Canadian sites.
    We know that, at the operational level, there is great 
respect and cooperation between American and Canadian agencies 
and services. Political leadership, however, in Canada has been 
another story, and this goes far to explain our malaise.
    For 13 years, the Liberal Party of Canada has been in 
power, playing up to, rather than mastering, radical interests. 
As finance minister, Mr. Paul Martin, later prime minister, 
attended with another cabinet minister a fundraising dinner put 
on by a Tamil Tigers terrorist front. There is concern that 
such groups have considerable political influence through 
increasing numbers and demographic shifts.
    But now, for just over 100 days, the Conservative Party has 
been in power and there are signs of improvement. Although 
constrained by their minority-government status, the new 
government has acted decisively to ban the Tamil Tigers, 
bringing us into line with other jurisdictions. And the 
evidence is that the government is constructively releasing 
information about current risks to Canada, rather than denying 
it or hiding for fear of antagonizing terrorist-sympathetic 
voting blocs.
    I will leave it at that--thank you, Mr. Chairman--and stand 
by for questions.
    [The prepared statement of Mr. Harris follows:]

                   Prepared Statement of David Harris

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Hostettler. Thank you, Mr. Harris.
    Mr. Rosenzweig?

 TESTIMONY OF PAUL ROSENZWEIG, ACTING ASSISTANT SECRETARY FOR 
    POLICY DEVELOPMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Rosenzweig. Mr. Chairman, thank you very much for the 
opportunity to discuss with you today the Western Hemisphere 
Travel Initiative. Let me remind you of its background to frame 
our conversation.
    Under current regulations, U.S. citizens and most Canadians 
and Bermudians who travel solely within the Western hemisphere 
do not require passports or any other specific documents to 
enter the United States. This is frequently referred to as the 
Western hemisphere loophole.
    Our initiative is a plan to close that loophole and satisfy 
the legislative mandates of IRCBA. The plan will require U.S. 
citizens and those Canadians, Bermudians and Mexican citizens 
currently exempt from the passport requirement to have a 
passport or other authorized, secure documentation denoting 
citizenship and identity when entering the United States.
    The security rationale for the Western Hemisphere Travel 
Initiative is robust and yet often unheard, particularly in 
regards to our northern border.
    Perhaps most obviously, access to our nation is critical 
for a terrorist to plan and carry out an attack on the 
homeland. As the 9/11 Commission's final report says, for 
terrorists, travel documents are as important as weapons. To 
them, international travel presents great danger, because they 
must surface to pass through regulated channels to present 
themselves to border security officials, or attempt to 
circumvent inspection points. This last is critical.
    From this, we know that there are certain moments when 
terrorists must surface if they wish to enter a country 
legally. Recurring opportunities to catch terrorists are rare, 
yet the process we follow to screen individuals who wish to 
enter the United States presents just such a limited 
opportunity. And our focus in the Western Hemisphere Travel 
Initiative is leveraging that opportunity.
    Currently, DHS officers cannot fully capitalize on the 
opportunity because of the loophole, which allows travelers to 
enter the United States without documentation. Clearly, to 
protect our border, we must be able to inspect those who seek 
to cross it.
    Right now, the system is not set up to our advantage, and 
we ought to make the system work for us. And we also ought to 
be grateful for the legislative tools that you have provided us 
that have motivated us to make these changes.
    It is an enormous challenge. We have over 7,000 miles of 
shared border with Canada and Mexico. Each day, DHS and CBP 
officers inspect more than 1.1 million people. In fiscal year 
2005, over 84,000 individuals were apprehended at ports of 
entry, trying to cross with fraudulent claims of citizenship or 
documents.
    On an average day--an average day--CBP intercepts more than 
200 fraudulent documents, arrests more than 60 people and 
refuses entry to hundreds, and all this accomplished with a 
system that allows individuals to either make verbal claims to 
citizenship or present a myriad of identification documents.
    CBP officers may be presented with over 8,000 different 
types of birth certificates, 50-plus varieties of State-issued 
driver's licenses, a variety of baptismal certificates, 
naturalization certificates. The list goes on.
    They also look at dozens of foreign driver's licenses and 
foreign certificates. Frankly, many of these documents are 
illegible or unverifiable. These combined factors create a 
tremendous potential for fraud, and the system must change.
    We need to limit the number of documents that are accepted 
and allow our inspectors to zero in on individuals who present 
the greatest threat to our country.
    Some compare crossing the border with Canada and the United 
States to crossing the Potomac, and we agree wholeheartedly 
that we share a very close relationship with our Canadian 
neighbors, culturally and economically.
    Yet we are two distinct countries that share similar values 
and have diverse populations, different immigration laws and 
different approaches. I think it is worth sharing with you the 
Canadian government's own assessment of the border.
    The Canadian Senate Committee on National Security, in June 
2005, said, ``The border presents a rare opportunity for 
society, through government, to monitor and assess who and what 
comes and goes. Border crossings provide border inspectors a 
chance to go eye to eye with those individuals intent on 
causing harm. It isn't a perfect opportunity, but it allows 
trained officers to scrutinize border crossers. This 
opportunity should not be squandered.'' I couldn't agree more.
    The initiative will help us reduce this vulnerability, 
whereas maintaining the status quo leaves a wide gap in our 
security. It is rarely recognized, but, as has already been 
discussed, both Canadian and U.S. agencies have acknowledged 
that there are terror groups operating in both of our 
countries. Besides Al Qaida, these include Islamic Jihad, 
Hezbollah, Shia groups, Hamas, Palestinian Force; the list goes 
on.
    Indeed, while most of the public attention has been focused 
lately on individuals crossing to the southwest border from 
Mexico, we have empirical evidence that our northern border is 
being significantly tested. Our operational data show that in 
the land environment, the northern border has five times as 
many positive terrorist watch list matches as the southern 
border. To put that in context, and to be fair, both land 
borders trail our air borders with respect to such matches.
    In addition to these threats from foreigners, the threat of 
home-grown terrorists is now a security issue as well, as is 
illustrated so poignantly by the arrests of 17 Canadian 
citizens in Toronto last week.
    Let me speak to next steps, briefly. We need to develop a 
system of layers to protect our country. We cannot create new 
vulnerabilities. And this is particularly true as we move 
forward to implement the Western Hemisphere Travel Initiative.
    For example, recent proposals for specific documents for 
infrequent travelers, commonly referred to as day passes, must 
be evaluated very carefully. We agree that a plan to deal with 
these travelers must be in place, but we must structure it 
properly through a rulemaking process.
    Frankly, infrequent travelers often pose a greater security 
risk since we usually know so little about their background, 
travel history, itinerary or purpose. And since we must issue 
documents that denote identity and citizenship, it is 
potentially a risk to consider on-the-spot issuance of such 
documents to travelers.
    Mr. Chairman, I believe I have run over my time. I will 
stop there and look forward to answering your questions.
    [The prepared statement of Mr. Rosenzweig follows:]

                 Prepared Statement of Paul Rosenzweig

    Chairman Hostettler, Ranking Member Jackson Lee, and other 
distinguished Members of the Committee, I am pleased to be here today 
to discuss how the Department of Homeland Security (DHS), in 
partnership with the Department of State (DoS), is working to thwart 
terrorist travel by strengthening documentation requirements for travel 
in the western hemisphere. The security rationale for the Western 
Hemisphere Travel Initiative (WHTI) is robust, and yet often unheard, 
particularly in regards to United States and Canadian citizens. 
Although secure travel for all of the Western Hemisphere is critical, 
we will focus here on the need for documentation for U.S. and Canadian 
citizens, because almost all other citizens (most Mexicans for example) 
are already required to present secure documentation at our borders 
that denotes identity and citizenship (such as a U.S. issued Border 
Crossing Card or visa as required for Mexicans).
    Access to our nation is critical for a terrorist to plan and to 
carry out attacks on our homeland. As the 9/11 Commission's Final 
Report states, ``For terrorists, travel documents are as important as 
weapons. Terrorists must travel clandestinely to meet, train, plan, 
case targets, and gain access to attack. To them, international travel 
presents great danger, because they must surface to pass through 
regulated channels to present themselves to border security officials, 
or attempt to circumvent inspection points.'' \1\
---------------------------------------------------------------------------
    \1\ 9/11 Commission report p.384
---------------------------------------------------------------------------
    Travelers by land are not, however, uniformly subjected to 
Government prescreening checks (such as the No Fly and Advance 
Passenger Manifest System checks) made when individuals travel by air 
or sea. DHS officers cannot fully capitalize on this opportunity 
because of the current standards for traveling within the Western 
Hemisphere, which allow certain travelers (those who claim to be U.S. 
citizens, most Canadians, Bermudians, and some Mexicans) to enter the 
United States without documents proving citizenship or nationality.
    The Western Hemisphere Travel Initiative, through its requirement 
that individuals carry a passport or other acceptable document(s), will 
greatly reduce the opportunities for fraud or misrepresentation of 
one's true identity. Advanced technology imbedded in these travel 
documents with appropriate privacy protections will allow real time 
checks against terrorist and immigration databases. This automation 
will allow DHS to more effectively leverage our immigration system--
specifically, the requirement for terrorists to ``surface to pass 
through regulated channels to present themselves to border officials.'' 
\2\ Clearly, to protect our border, we must be able to inspect those 
who seek to cross it. Through WHTI, we have an opportunity to increase 
security not only for the U.S., but for the rest of the Western 
Hemisphere as well.
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    This is an enormous challenge. We have over 7,000 miles of shared 
borders with Canada and Mexico, and each day DHS Customs and Border 
Protection (CBP) Officers inspect more than 1.1 million passengers and 
pedestrians. In Fiscal Year 2005, over 84,000 individuals were 
apprehended at the ports of entry trying to cross the border with 
fraudulent claims of citizenship or documents. Moreover, on an average 
day, CBP intercepts more than 200 fraudulent documents, arrests over 
sixty people at ports of entry, and refuses entry to hundreds of non-
citizens, a few dozen of whom are criminal aliens.
    At major ports of entry in particular, CBP inspectors face an 
enormous volume of travelers attempting to cross our borders, the vast 
majority of whom are legitimate. However, a DHS officer is today faced 
with either assessing an oral claim to citizenship, or scrutinizing the 
myriad forms of identification currently accepted--a time-consuming and 
challenging task. The number and types of documentation currently 
accepted--often a driver's license or birth certificate--are prone to 
counterfeiting and fraud and are obtainable by terrorists and other 
dangerous persons who wish to enter our country illegally. In addition, 
currently, over 8,000 different types of documentation are presented by 
travelers to CBP officers. Limiting the number and type of documents 
accepted will help our inspectors identify individuals who present the 
greatest threat to our country. Maintaining the flow of commerce is 
critical, but we must also be confident in our determinations of who is 
crossing our border.

               OPPORTUNITIES AT INTERNATIONAL BOUNDARIES

    It is important to bear in mind, when discussing our border with 
Canada, that it is a truly international boundary. We enjoy a very 
close relationship with our Canadian neighbors, culturally and 
economically. We were particularly grateful for the very close 
cooperation and coordination that occurred between Canada and the U.S. 
regarding their arrests of suspected terrorists last week. Yet we are 
two distinct countries that share similar values but have diverse 
populations and have historically employed different immigration laws.
    In March 2005, President George W. Bush, Prime Minister Paul Martin 
of Canada, and President Vicente Fox of Mexico unveiled a blueprint for 
a safer and more prosperous North America when they announced the 
Security and Prosperity Partnership of North America (SPP) in Waco, TX. 
There, ``they agreed on ambitious security and prosperity agendas to 
keep our borders closed to terrorists and open to trade. The SPP is 
based on the premise that security and our economic prosperity are 
mutually reinforcing, and recognizes that our three great nations are 
bound by a shared belief in freedom, economic opportunity, and strong 
democratic institutions.
    Guided by a Leaders Statement and Action Plans on Security and 
Prosperity, Cabinet Secretaries and Ministers convened trilateral 
working groups to develop concrete work plans and specific timetables 
for securing North America and ensuring legitimate travelers and cargo 
efficiently cross our shared borders; enhancing the competitive 
position of North American industries in the global marketplace; and, 
providing greater economic opportunities for all of our societies while 
maintaining high standards of health and safety.'' \3\
---------------------------------------------------------------------------
    \3\ www.spp.gov
---------------------------------------------------------------------------
    Although much work remains, it is important to recognize the work 
accomplished through the Security and Prosperity Partnership. Through 
the SPP, the Canadian and Mexican governments are working with us to 
identify best practices for screening travelers to North America and 
vetting those who wish to remain for permanent residence or citizenship 
in North America. In particular, we are working with Canadian 
authorities under the Security and Prosperity Partnership of North 
America on setting common standards for documentation that may be used 
to cross our common border.

              EXTREMISTS EXPLOITING THE WESTERN HEMISPHERE

    We greatly appreciate the outstanding cooperation between the 
United States and Canada in working to secure our common border. 
However, even as we work together to strengthen our borders, we are 
still faced with many challenges at home and at our borders. This is 
true in the United States, Canada, Mexico and our other Western 
Hemisphere neighbors.
    Canadian Security Intelligence Service (CSIS) Deputy Director Jack 
Hooper recently informed a Canadian Senate national security committee 
that CSIS lacks the resources to vet a significant portion of the 
immigration cases referred to it. Mr. Hooper specifically noted that 
approximately 20,000 immigrants have come to Canada from the 
Afghanistan/Pakistan region since 2001.
    Some extremists have demonstrated the ability to blend into a 
number of the large communities existing in major U.S. and Canadian 
cities. From such locations, extremists can conduct fundraising and 
other support activities, including proselytizing extremist ideals to 
segments of the youth population that they find susceptible.
    In 2004, CSIS reported that terrorist representatives were actively 
raising money, procuring weapons, ``manipulating immigrant 
communities'' and facilitating travel to and from the United States and 
other countries. Besides al-Qaida, groups mentioned by CSIS include: 
Islamic Jihad; Hezbollah and other Shiite groups; Hamas; the 
Palestinian Force 17; Egyptian Al Jihad and various other Sunni groups 
from across the Middle East. CSIS has said the Irish Republican Army, 
Tamil Tigers and Kurdistan Workers Party (PKK) and major Sikh terrorist 
groups also have supporters in Canada.\4\
---------------------------------------------------------------------------
    \4\ http://www.policeone.com/news--internal.asp?view=116677
---------------------------------------------------------------------------
    The Government of Canada has shown that it is taking strong action 
to protect itself which also helps protect our citizens. Also, as with 
our own situation, the vast majority of persons who immigrate to Canada 
are law-abiding, simply seeking a better life for themselves and their 
families.
    As populations increasingly mix and extremists recruit native-born 
youth and converts, travel documents become even more critical in 
identifying terrorists. Travel documents and travel patterns can 
provide inspectors with terrorist indicators--sometimes the only clue 
the government will receive.

       EFFECTIVELY USING THE BORDER--A NATIONAL SECURITY PRIORITY

    Border security is a cornerstone of national security and as 
President Bush and Secretary Chertoff's creation of the Secure Border 
Initiative and allocations of resources for border security 
demonstrate, the Administration considers securing the border a top 
priority. If we are to protect our homeland from terrorist attacks, we 
must use all of the tools at our disposal.
    The Canadian Senate Committee on National Security and Defense has 
also recognized the opportunity at the border. In their 2005 report 
they stated, ``'The border' represents a rare opportunity for society, 
through government, to monitor and assess who and what comes and goes. 
It should not be wasted. . . . Border crossings provide border 
inspectors a chance to go eye-to-eye with those individuals intent on 
causing harm. It isn't a perfect opportunity . . . but it does allow 
trained officers to scrutinize [border crossers]. This opportunity 
should not be squandered.'' \5\
---------------------------------------------------------------------------
    \5\ ``Borderline Insecure'' An Interim Report by the Senate 
Committee on National Security and Defense, June 2005. p.5 & 6
---------------------------------------------------------------------------
    Our international borders are extremely well run--so well run that 
they have been mistaken for much less than they are--our first line of 
defense. Some travelers have become used to crossing the border without 
identification--something that is done nowhere else in the world and a 
security vulnerability. We have an opportunity to install a system that 
will work to thwart individuals who intend to attack our citizens and 
our infrastructure. The WHTI will help make us safer. We are grateful 
to Congress given its legislative work in this area.
    The WHTI will require all travelers to present secure documentation 
when crossing our border and will significantly increase security. It 
is important to bear in mind, however, that security and commerce are 
not exclusive of each other. In fact, standardized and automated travel 
documents will enable us to quickly, reliably, and accurately identify 
a traveler and his or her citizenship without having to review an 
assortment of documents and pursue a line of questioning to determine 
who the person is; this will facilitate the entry of travelers. To 
leverage this facilitation potential, DHS and DOS are developing plans 
to produce an alternative form of the U.S. passport for use at land 
border crossings. DHS and DOS realize that a traditional passport book 
may not be the most convenient or effective form of documentation for 
land border use, particularly for frequent crossers. Therefore, 
Secretary Chertoff and Secretary Rice jointly announced a proposed 
travel card for U.S. citizens. The DOS-issued travel card is envisioned 
as wallet-sized and convenient to obtain, costing the bearer 
substantially less than a traditional passport. DOS will determine 
eligibility for the passport card in the same way that it determines 
eligibility for the traditional book passport. The card will contain 
security features and will use technology to link the identity and 
citizenship of the bearer to a U.S. government database in a privacy 
protective manner.
    Because of the need to ensure that frequent crossers and residents 
of border communities can obtain necessary documents to ensure 
continued cross-border travel, we are also reviewing a variety of 
document options for these travelers. In addition to the passport book 
and card which are authorized under law, we are also reviewing the 
Border Crossing Cards (BCCs) for Mexican citizens, and the expansion of 
``trusted traveler'' programs, which would expedite low-risk travelers, 
particularly those who reside in border communities and make frequent 
trips across the border as a routine part of their daily lives.
    Existing ``trusted traveler'' programs are also being evaluated for 
expanded use at our land borders. These include the NEXUS, Secure 
Electronic Network for Travelers Rapid Inspection (SENTRI), and Free 
and Secure Trade (FAST) programs. These programs facilitate the 
crossing of low-risk, frequent travelers and commercial truck drivers 
at the land borders through exclusive, dedicated lanes.

                            THE WAY FORWARD

    As we discuss options for alternative documentation consistent with 
our statutory mandate, we must not create new loopholes that could be 
exploited to undermine our border security. In particular, proposals 
for specific documents for infrequent travelers must be evaluated 
carefully. These travelers often pose a greater security risk since we 
know so little about their background, travel history, itinerary, or 
purpose for travel. Since the requirements of the statute are for 
documents denoting identity and citizenship, it is potentially a great 
risk to consider any sort of ``on-the-spot'' issuance of identity and 
citizenship documents to these travelers. At the same time, we 
understand that there are significant travel, trade, and tourism 
concerns associated with spontaneous travel and we will continue to 
assess these issues.
    The WHTI will be implemented in two phases: first in the air and 
sea environments by 2007; and second, along the land borders by 2008. 
Completing this task on time as required by law will deliver 
significantly stronger security for the Homeland.
    The United States and its Western Hemisphere neighbors continue to 
work together, sharing information and improving their security 
systems. Canada, in particular, has made significant strides recently, 
including the recent arrests of the suspected terrorists. Additionally, 
since December 2005, the Canadian court system has cleared the way for 
several successful and important Canadian-related terrorism cases to 
proceed. This progress is encouraging and we continue to move in the 
right direction of increasing identity document security, increasing 
information sharing, and deploying the necessary resources to protect 
our border. However, we must not become lax in our efforts and we need 
to complement these advances with smarter, more efficient and more 
secure document controls at the border.
    I will close by echoing the Canadian Senate's sentiment that, 
``These [land border] crossings represent each country's last, best 
chance to scrutinize persons and cargo that should not be entering each 
other's territory.'' \6\ Strong borders are a pillar of national 
security, and the Western Hemisphere Travel Initiative is a cornerstone 
of border security.
---------------------------------------------------------------------------
    \6\ ``Borderline Insecure'' An Interim Report by the Senate 
Committee on National Security and Defense, June 2005. p.6
---------------------------------------------------------------------------
    The Administration will continue to work with Canada and Mexico, 
and our other Western Hemisphere neighbors, to ensure the successful 
implementation of this initiative.

    Mr. Hostettler. Thank you, Mr. Rosenzweig.
    Mr. Dow?

TESTIMONY OF ROGER DOW, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
             TRAVEL INDUSTRY ASSOCIATION OF AMERICA

    Mr. Dow. Thank you, Mr. Chairman, I appreciate it, and 
Members of the Committee, I appreciate the time to address an 
issue that is of great importance to the U.S. travel industry. 
As you stated, I am head of the Travel Industry Association of 
America, but I also represent our strategic partner, the Travel 
Business Roundtable.
    The U.S. travel industry is one of the largest retail 
sectors of our economy, employing 7 million U.S. citizens. The 
travel and tourism industry has a major presence in all 50 
States and 435 congressional districts.
    Just for the Members of the 16 congressional districts 
represented by this Committee, the travel and tourism industry 
represents $19 billion in travel expenditures, $5.3 billion in 
payroll and over a quarter of a million jobs. Nationally, we 
roll up to $650 billion in revenue, and $100 billion of that 
comes from outside the United States.
    Regarding the Western Hemisphere Travel Initiative, there 
has never been a question of why to implement this change or if 
it should be done. We totally support that. We strongly agree 
that customers and border protection officers should be in a 
position to examine fewer and more reliable travel documents 
for those entering and traveling in the Western hemisphere.
    That said, there are two very critical things we should 
consider: one, when to implement the new travel document 
requirements and how to carry out this mandate.
    We have 14 million visitors from Canada, which makes it the 
largest international travel market. It is growing, while other 
international markets have been shrinking in recent years. It 
is so important to get the Western Hemisphere Travel Initiative 
right and much more important than trying to rush to a market 
solution that may not work and that may cause a lot of 
confusion among travelers.
    The recent issue of the deadline and the possible 
extension, the U.S. travel industry supports the legislative 
extension of the current deadline, because we need to--we 
certainly believe that the Federal Government cannot meet the 
WHTI deadline in time.
    This is very similar to the recent requirement for the 
extension of the deadline of the biometric passports. Now, just 
as then, we seek a reasonable extension, not an indefinite 
delay. The Committee supported the extension of biometric 
passports, and we ask that they thoughtfully consider the same 
thing in this case.
    Because extension alone is not a solution, TIA and TBR and 
others lay out many recommendations, which we have done in 
letters, congressional testimony and filings. I would like to 
highlight a few things that we advocate in addition to a 
single, unified document.
    First, the creation of a single document for all ports and 
all modes of travel, to avoid traveler confusion that may lead 
to canceled trips.
    Second, development of a low-cost, secure alternative to 
the passport that is convenient and done in full cooperation 
with the Canadian government.
    Next, explore a possible use of the States' driver licenses 
under provisions of Real I.D., and examining how citizenship 
status can be included on a much more secure and consistent 
driver's license.
    Absent a program to create a low-cost alternative travel 
document, Congress should authorize appropriate funds to permit 
the U.S. State Department to issue discounted U.S. passports. 
It is clearly important that we get passports in the hands of 
travelers.
    Lastly, one key policy decision--once these key policy 
decisions are finalized, it is essential that the government 
launch a massive public information campaign aimed at 
travelers. The travel industry will use our resources to help 
support and help get that word out, because it is critical to 
have a consistent message.
    Travelers are now making their purchase decisions for 2007. 
This is especially true for cruise lines, where only half of 
the cruise ship passengers presently carry a passport. The 
question is, what will happen less than 7 months from now on 
January 1, 2007? Travelers need certainty. They need reliable 
information to help make purchasing decisions.
    Finally, let me address the recent events that occurred in 
Canada. The recent arrests in Canada of the suspected 
terrorists highlight the need for intensified law enforcement 
and intelligence-sharing by U.S., Canada and others. 
Cooperation and information-sharing we can only presume 
surrounded the recent arrests and argues for greater U.S.-
Canada cooperation and the use of driver's licenses, pass cards 
and passports that are very secure and consistent for border 
crossing.
    In closing, the U.S. travel industry wants to be a full and 
complete partner in reaching this critical decision. And it is 
fully important that we secure our borders and enhance travel 
in our economy, and both are not mutually exclusive.
    Thank you very much.
    [The prepared statement of Mr. Dow follows:]

                    Prepared Statement of Roger Dow

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hostettler. Thank you, Mr. Dow.
    At this time, we will turn to questions from the panel.
    First of all, Ms. Kephart, are you aware of any identity 
document in Canada, other than a passport, which would provide 
an equivalent level of verification of citizenship status and 
would be as secure as a passport?
    Ms. Kephart. I can't imagine what would be. Mr. Harris 
would be more familiar with what kinds of documents are 
available in Canada.
    However, the internationally recognized travel document 
around the world is the passport. The passport has the security 
features, it is run against databases, et cetera.
    What that means for the terrorist is a terrorist has to 
choose, if you have WHTI in place, between going to a passport 
office and applying for a passport in Canada or not and trying 
to come in illegally. It forces them into a corner.
    So whatever else might be out there, it is not going to be 
as secure a choice for us as the passport would be.
    Mr. Hostettler. So you wouldn't have any idea of what other 
type of document Canadian officials are talking about when they 
suggest in press accounts that they are not concerned about the 
WHTI?
    Ms. Kephart. From my understanding, there have not been 
alternatives put forward by the Canadian government to deal 
with the issue at this point. But Mr. Harris might be able to 
answer that.
    Mr. Hostettler. Very good.
    Mr. Harris, would you be able to?
    Mr. Harris. Thank you. I am not aware of any alternatives, 
although I do know----
    Mr. Hostettler. Could you----
    Mr. Harris. Sorry. I am not aware of any alternatives, 
although I do know that the focus has predictably been on the 
passport possibility because of its universal nature and the 
whole issue of data checking and so forth. So I think the 
passport would be the focus.
    Thank you.
    Mr. Hostettler. Very good.
    Mr. Rosenzweig, as we mentioned, Canadian officials have 
made some public statements that they have no plans to issue a 
Canadian pass card like the one planned for U.S. citizens, 
because they claim that Secretary Chertoff has told them U.S. 
inspectors will accept other Canadian documents.
    Is that true or do you know of a deal that we are 
unfamiliar with here in Congress that has been struck?
    Mr. Rosenzweig. I have been in this town many years, Mr. 
Chairman, and I think the only thing I am certain of is that 
all press accounts should not be treated as holy writ. I 
personally participated in the meetings between Secretary 
Chertoff and Minister Day, and the Secretary made no secret 
deals.
    I believe that Minister Day later issued a clarification of 
the original press account that reflected much more accurately 
the nature of the discussions. We are indeed in discussions 
with our Canadian colleagues as to which, if any, additional 
documentation from Canada would be accepted.
    When and if any additional documents are added to the list, 
they would be documents of equivalent security and validity as 
a passport, much as we on our side are contemplating, as the 
secretary has announced, a passport card, which would be a 
smaller, cheaper, but equally secure and based-upon-vetting 
card, kind of a driver's-license-size card, as opposed to the 
normal passport book.
    That might be a possibility that we would encourage our 
Canadian colleagues to think about. They are on their side 
having to work through the issues of their own legislative and 
production. But I can assure you there was no secret deal to 
accept baptismal certificates.
    Mr. Hostettler. Right. The pass card is a new type of 
document, but it is your understanding that there is no 
document currently, other than the passport, that gives the 
secure features of a passport in Canada?
    Mr. Rosenzweig. As was Ms. Kephart, I don't have a full 
visibility into what Canadians issue. We do have some excellent 
programs with Canada relating to trusted traveler programs that 
issue cards--NEXUS and FAST are the two programs--whereby 
individuals who carry them are vetted by joint U.S.-Canadian 
investigations and are issued a secure document card.
    And that card--those types of trusted traveler cards are 
being considered as alternates like the pass card. But they, 
too, meet the high security and vetting standards that are 
equivalent to the passport issuance process on both sides of 
the border.
    Mr. Hostettler. Okay. Let me ask you real quickly, will DHS 
meet the deadlines for 2007 for sea and air ports and then for 
2008 for land ports? Are we on schedule to do that?
    Mr. Rosenzweig. We have every anticipation of meeting those 
deadlines. It is only in Washington that 19 months before a 
deadline is a crisis.
    To be sure, there are many challenges ahead of us. There 
are regulations to be promulgated. There is technology to be 
put out at the border, cards to be developed.
    But at this juncture, though we have a few of those steps 
ahead of us, we have every confidence that we will be able to 
meet the deadlines. And we are certainly working almost 
literally day and night to make sure that that happens.
    Mr. Hostettler. Thank you. Without objection, I will grant 
myself an additional minute for an additional question of Mr. 
Dow.
    Mr. Dow, we just heard about being able to meet that 
deadline, and you in your testimony suggested that--observed 
that travelers are making plans for 2007. At this time, is 
there any thought to somehow through the ticket purchasing 
process facilitate educating the public as to the need for a 
passport?
    For example, when someone is going to buy their tickets 
online, as sophisticated as that is, that they are required to, 
for example, provide a passport number, and in so doing a 
traveler today, going to their P.C., would find out that there 
is a bit of information that they don't have, without which 
they can't get a ticket for a January 2nd cruise.
    Is that possible, or is there--or would there be a problem 
with that, with something like that?
    Mr. Dow. Well, there is a--the issue is not only being able 
to communicate it, but to be able to have the information from 
the passport. Just like today, when I make reservations, my 
passport is at home, but I make airline reservations. So there 
is a difficulty there.
    What our industry is proposing is a stepped-up and huge 
communications campaign. It is critical, because there is so 
much confusion right now, whether it is the December 31st of 
this year or it is December 31st of next year, what is land and 
sea, what is air and sea versus land.
    So we have got to get a single date, and we have got to do 
everything we can to communicate it. And I think your 
suggestion of having communication with when people make 
reservations for cruises is critical. But right now there are 
people who have made those reservations for cruises that do not 
have a passport, and there is going to be a real problem coming 
up in 6 months.
    Mr. Hostettler. Thank you.
    The chair recognizes the gentlelady from Texas for 
questions.
    Ms. Jackson Lee. Thank you very much. I would say to the 
panel that crises in Washington are defined by different time 
frames, but I would consider this an important hearing for 
information and to give guidance.
    I would also, Mr. Chairman, like to offer a disclaimer 
that, in fact, we are not unconcerned about security and 
ensuring, as Mr. Dow has said, that we do have the right kind 
of documents and secure documents that will help us facilitate 
travel in the Western hemisphere.
    At the same time, let me say on the personal perspective is 
my comments on security and wanting to probe and dig deeply 
into what kind of document we can have is no affirmation of 
support of a national I.D. card. So I think that we can 
function with security in a way that tells the American people 
we mean business, but at the same time be responsible on our 
liberties and the free flow of traffic.
    Mr. Chairman, let me briefly indicate that I have an 
opening statement that I would like to, in its entirety, submit 
into the record. I ask unanimous consent.
    Mr. Hostettler. Without objection.
    [The prepared statement of Ms. Jackson Lee is available in 
the Appendix.]
    Ms. Jackson Lee. And just briefly acknowledge the existence 
of the Western Hemisphere Travel Initiative, which requires the 
Department of Homeland Security to consult with the Department 
of State--a good partnership--to develop and implement a plant 
to require a passport or other document or combination of 
documents deemed to be sufficient to establish identity and 
citizenship status for travelers entering into the United 
States.
    So this is truly to continue the friendship that we have 
with countries such as Canada, Mexico, Central and South 
America, the Caribbean and Bermuda, which most Americans will 
realize that there has been a continuous, ongoing relationship 
and opportunities.
    I might also note that I consider the Caribbean and Bermuda 
our third border initiative. And we have comparable activities 
there to ensure the safety of both commerce and travel.
    I think that, though this is not the jurisdiction of this 
Committee, but it is of the Homeland Security Committee, I am, 
for example, supportive of identifying and labeling all cargo 
that comes into the United States.
    But I think we can find a way with this WHTI to have an 
orderly, effective and secure process that will provide the 
travel documents that are necessary. And I hope that DHS and 
DOS will have the time and initiative to be able to do so.
    I would also say that, whatever technology is chosen, that 
it should be the highest caliber.
    And I will just go on record, Mr. Chairman--again, this may 
not be our jurisdiction--let us make sure that the contractor 
that engages in doing this work will be the kind of transparent 
process, contract that gets the job done.
    Let me pointedly ask Mr. Rosenzweig, if I have it 
correctly, almost, I assume--and it is good to see you again. 
Let me ask you, let me pointedly ask you, about this deadline. 
Even though you have, I think very pointedly, tried to respond 
back, but people are concerned.
    We have contractual problems in the Department of Homeland 
Security. We have had failures in technology in terms of 
contracts that have been let and failures to that extent. What 
is your guarantee that this time frame works for you? Because, 
needless to say, we have looked over the past days, even, and 
see that even on the northern border and southern border, the 
Western hemisphere, we have problems.
    What is it that gives us comfort that DHS is on track for 
these particular documents?
    Mr. Rosenzweig. Thank you very much. And it is indeed a 
great pleasure to be back here. Thank you for welcoming me 
again.
    In life, there are only two certainties: death and taxes. 
There are no guarantees. That having been said, we are indeed, 
in our judgment, on track for both of the release of the air-
sea rule that will govern travel after January of this year and 
of the land border rule, which of course does not have to take 
effect until the statutory deadline of January 1, 2008.
    To be sure, a technological deployment of this nature is a 
challenge. It is a challenge we met with respect to the US-
VISIT program, for example, which was similarly one that many 
people thought would be a potential train wreck in its 
deployment, leading, we were told, to long lines at our ports 
of entry.
    I think that in retrospect everybody is--any fair-minded 
observer is compelled to acknowledge that that deployment went 
quite well, not without any hiccups at all----
    Ms. Jackson Lee. Is a contractor in place? Is a design of 
the type document in place?
    Mr. Rosenzweig. With respect to the documents going forward 
as opposed to the technology, a decision on precisely which 
technology to use has yet to be made. I anticipate that being 
made in the very near future. And that will allow the 
Department of State, who will indeed be the issuing authority, 
to let the contract for the production of the passport cards.
    I should add that, you know, as of today, any American is 
free to get a passport. We have been doing that for many years. 
My colleagues at the Department of State know how to do that, 
and they show great graphs about how millions more are actually 
applying in anticipation of this.
    With respect to the technology deployment at the borders, 
which is the other side of that, that is a contract that we at 
DHS will have to let. That, too, has not been let yet, again, 
because the precise technology decision as to what type of 
card, what access, what it will read, what it will contain, 
hasn't been made.
    Again, I expect that to be made within a matter of weeks. 
And I believe that 18 months will be more than enough time to 
promulgate, propagate that technology out----
    Ms. Jackson Lee. Chairman, may I have an additional 30 
seconds so that I can ask Mr. Dow a question, please?
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Mr. Dow, good words from Homeland 
Security. I will ask him next, if we gave him more time, would 
he utilize it.
    But on your end, obviously a focus on trade and commerce; 
some would say not concerned about security. Why don't you 
respond to that?
    Mr. Dow. Our industry, on September 11th, was dropped to 
its knees in a matter of minutes. Anything that would happen 
that would have to do with terrorism to our industry would drop 
it to its knees again. No one is more concerned about security 
and the safety of our country than our industry. We are the 
most vulnerable.
    And that is why I have thought, once again, your wisdom of 
the words efficient and secure, because we all know the 
realities of getting things done. We want security, but we want 
it done on a timely basis to communicate it and to distribute 
the cards.
    Ms. Jackson Lee. I appreciate it. Thank you very much.
    Mr. Dow. Thank you.
    Ms. Jackson Lee. I yield back.
    Mr. Hostettler. The chair recognizes the gentleman from 
Arizona for purposes of questions.
    Mr. Flake. I thank the chair, and I thank the chair for 
scheduling this hearing.
    Mr. Rosenzweig, you had mentioned--and I want to hit on 
this deadline again. You mentioned it is only in Washington 
that 19 months before a deadline that people think there is a 
problem. I would submit that because it is Washington, we know 
that there might be a problem. I think that we have been down 
this road before plenty of times, and I would like to--I would 
think that there are some benchmarks that have to be hit as we 
go along to give us some confidence that we are going to get 
that deadline, or reach that deadline.
    Can you give us that confidence by telling us what measures 
are being taken now, specifically? Is there procurement going 
on right now? Is there testing of these machines or readers? Is 
there a public education awareness campaign? We have already 
heard that that is really not going on.
    If these aren't rolled out before we get to that deadline, 
we are not going to get to that deadline.
    And I would like Mr. Dow's comments after I hear yours.
    Specifically, procurement, is it under way?
    Mr. Rosenzweig. As I said in response to Ms. Jackson Lee, 
the procurement contract has not been let, precisely because 
the technology has not been chosen.
    With respect to testing, that is being done. We have done 
time and motion studies in order to assess which technologies 
to choose. I would say that many of the technologies we have 
chosen, or that we are considering, are fairly common in use 
today. There has been a suggestion, for example, that we might 
include a proximity chip in the pass card. If you have traveled 
on Metro, you have used a proximity chip.
    So we are not in this going to propagate technologies that 
are new. The machine-readable zone is on every passport.
    Mr. Flake. Understood.
    Mr. Rosenzweig. So we have been doing that.
    On the public education, I guess I would have to 
respectfully disagree with the assertion there hasn't been. I 
am serving in an acting capacity. I know that my predecessor 
has spent days on the road up in the northern tier, educating 
people as to the coming requirements. I know that the 
department has put together and will be rolling out within the 
next month or so a Web site, flyers, public education.
    Again, however, many of the implementation there has been 
awaiting the last, final, precise definition of what is going 
on, because it makes no sense to tell the public of a coming 
issue without also telling them precisely what steps they 
should be taking: ``You must go and buy this.'' And we have to 
define what ``this'' is.
    And, as I have said, as I participate in this problem, I 
wish that the meetings that I know are planned in the very near 
future were just a week ago, so I could answer you better.
    Mr. Flake. Before I go to Mr. Dow, let me just say, at what 
point can we expect to hear from you if that deadline is not 
going to be reached? How long before the deadline?
    Because the last thing we want is to see some half-baked 
effort right near the end where it is a rollout that really 
isn't a proper rollout. So we want to know long before when 
that deadline has to be put back until, or what we need to do.
    At what point can we expect to hear from you?
    Mr. Rosenzweig. I don't have a precise date to give you an 
answer on that, but I would expect that if we hold this hearing 
1 year from now, you will be exceedingly comfortable with the 
progress we have made. And I would expect that if you are not, 
that would be an appropriate time for us take action.
    But, as I said at the start, I have every confidence, given 
what I know to be entrained, that we are on track to meet the 
deadline, and that if we are not, there will be ample time for 
this Congress to act as it sees fit.
    Mr. Flake. I would just say that there are certain 
procurement--there are certain time periods that are there in 
statute that you have to go through. And so it is going to be 
obvious at some point. We would just like to know that you know 
that it is obvious, instead of, you know, coming right up near 
and doing some half-baked rollout.
    Mr. Dow, do you have any comments, sir?
    Mr. Dow. Yes. I think you have stated it very well. And 
with all due respect, the ``this'' has not been defined. 
Clearly, the technology has not been defined. The vendor and 
supplier has not been defined. And we all know the difficulties 
of communicating this, not only to 14 million Canadian 
travelers, but to an equal and greater number of U.S. 
travelers.
    So we are talking about--we cannot in days of visits 
identify and help people understand a change in a process for 
30 million visitors. We again support a realistic deadline that 
we can do all the right things and do this right, rather than 
half-baked.
    Mr. Flake. If the gentlemen will indulge for one follow-up 
question.
    Mr. Hostettler. The gentlemen is recognized, without 
objection.
    Mr. Flake. There has been some talk with the Real I.D. Act 
and with driver's licenses, a lot of the same provisions that 
go into that are going into this program, that there has been 
some discussion of perhaps maybe having additional requirements 
with Real I.D. or whatever else, but being able to use the 
license for U.S. visitors going out and coming back in.
    Have you--has there been any discussion within DHS about 
that?
    Mr. Rosenzweig. Yes, there has. In this, I am somewhat 
constrained because to speak too much about what is happening 
within a regulatory process before it becomes formal risks the 
process itself. There are many legal limitations.
    Speaking at a high level of generality, I can say that that 
is an attractive option that we would like to consider. It is 
also, however, one that poses some substantial operational 
difficulties, not the least of which would be how we would 
allow--how a State driver's license issuance agency would be 
enabled to adjudge U.S. citizenship.
    Today, the only people who judge U.S. citizenship are the 
Department of State for purposes of passport issuance and our 
CIS, our immigration services, for its purposes. The States are 
not equipped that way. So we would need to work at figuring out 
how that could happen, and that is by no means an insoluble 
problem, but it is also by no means a trivial one.
    Mr. Flake. Let me just state that with Real I.D. we do have 
some of those concerns to take care of.
    Thank you, and I thank the chair.
    Mr. Hostettler. Thank the gentleman.
    The chair recognizes the gentlelady from California for 
purposes of question.
    Ms. Waters. Thank you very much, Mr. Chairman. I thank you 
for holding the hearing.
    And I must tell you that I feel a bit of frustration, given 
we are in the middle of an immigration reform and all of the 
complications of that and the recent information about 
terrorists on the northern border in Canada, and an 
Administration who has made fighting terrorism its number-one 
priority, and yet we have two departments, Homeland Security 
and State Department, that can't seem to get its act together 
to implement that which has been adopted by the Congress of the 
United States.
    And now we have two senators and others--I guess senators 
from the northern border side and the southern border side, 
saying this program must be delayed, that there are too many 
kinks, that it would be a mess, that it is going to create all 
kinds of problems at the border.
    What can I ask, except--where is the State Department, by 
the way, Mr. Chairman? Is the State Department here?
    I want to hear from Homeland Security and State Department 
about why you can't get this stuff together. That is all I want 
to know.
    Mr. Hostettler. Well, if the gentlelady would yield, we are 
limited to the number of witnesses that we have available to 
us. Mr. Rosenzweig is here from the Department of Homeland 
Security and can speak to the Department of Homeland Security 
perspective on that issue, and at a later time, we may be able 
to have the Department of State here.
    But, at this time--and obviously you can make inquiry 
outside of this Subcommittee hearing, but right now these are 
the witnesses that we have very ably testifying before us. And 
Mr. Rosenzweig----
    Ms. Waters. Well, let me ask Mr. Rosenzweig, do you--does 
Homeland Security and Department of State work together on this 
issue?
    Mr. Rosenzweig. I have to say that I am almost literally 
joined at the hip with Mr. Frank Moss at the Department of 
State.
    Ms. Waters. How long have the two of you, joined at the 
hip, been working on----
    Mr. Rosenzweig. Well, I am relatively new in my current 
position.
    Ms. Waters. Who was joined at the hip before you?
    Mr. Rosenzweig. Ms. Elaine Dezenski, who left----
    Ms. Waters. How long were they joined at the hip?
    Mr. Rosenzweig. They have been joined at the hip since the 
passage of the Intelligence Reform Terrorism Prevention Act in 
December of 2004. We began working on this----
    Ms. Waters. Did anybody tell you before you got joined why 
they could not get it all worked out?
    Mr. Rosenzweig. I am not sure I understand what they could 
not--what you are referring to.
    Ms. Waters. Okay, are you familiar with Senator Leahy and 
his concerns and the amendment that he has introduced for a 
delay?
    Mr. Rosenzweig. Yes.
    Ms. Waters. Well, I am concerned about the same thing he is 
concerned about. Do you understand that?
    Mr. Rosenzweig. I do.
    Ms. Waters. All right. Then why have you not been able to 
address the concerns, as clearly identified by Mr. Leahy, that 
I shouldn't have to repeat to you?
    Mr. Rosenzweig. Well, the department--the Government, the 
Administration, has taken no position on the Leahy bill itself. 
However, as I have expressed to Congressman Flake and to 
Congressman Hostettler and to Ms. Congresswoman Jackson Lee, I 
don't share the same high degree of concern that Senator Leahy 
and others have that we are not going to meet the statutory 
deadline.
    To the contrary, from my perspective, every day of delay is 
another day of risk at the northern border. And we are working 
mightily, as fast as we can, to close the Western hemisphere 
loophole in conformance with the statutory deadline.
    I was asked if I could guarantee that, and, you know, 
unlike many who would perhaps hazard that guarantee, and I 
won't, but I have every degree of confidence that we actually 
have in place the program management, the drafts of the 
appropriate regulations. We have narrowed the technology 
questions down to a very few that need to be answered in the 
next couple of days. And if we hold this hearing again in a 
year, or even in 6 months, the lack of necessity for an 
extension will be even more apparent.
    Ms. Waters. So, you would object to any representations 
that there are going to be border delays, there will be 
problems implementing this program at the border?
    Mr. Rosenzweig. On the contrary. I am sure that there will 
be some delays in the immediate aftermath, as with any new 
program----
    Ms. Waters. No, train wrecks. Mr. Leahy says a train 
wreck----
    Mr. Rosenzweig. I would disagree with that.
    Ms. Waters [continuing]. On the horizon for the northern 
border and lack of coordination with the Canadian government. 
So you disagree with all of that?
    Mr. Rosenzweig. Yes, ma'am. On the contrary, I would say 
that, when fully implemented, the Western Hemisphere Travel 
Initiative, with its technological deployment, will actually 
speed and facilitate cross-border traffic, by allowing our CBP 
inspectors the ability to more rapidly access information about 
travelers and thereby reduce the delay times at the border.
    I also would dispute the characterization of a lack of 
coordination with our Canadian colleagues. To the contrary, as 
recently as this morning I was speaking to them. We at the 
Department of Homeland Security are in close consultation with 
them on a regular, ongoing basis.
    We have many issues to work through. I would not say that 
we have reached full agreement with them on everything, by any 
means. But I would say that, as exemplified by the close 
coordination that we have had on intelligence and law 
enforcement matters relating to the recent arrest, that the 
working relationship we have with our Canadian colleagues is 
amongst the best I have with any foreign nation.
    Ms. Waters. Okay, all right.
    Mr. Chairman, I would request just 30 more seconds to ask 
about----
    Mr. Hostettler. Without objection.
    Ms. Waters [continuing]. The technology difference that you 
have with--the two of you have. The technology favored by DHS 
is an open-UHF system that would possibly make our border less 
secure. In addition, DHS has yet to request a single dollar for 
the infrastructure required, needed, with whatever card is 
deployed.
    Is there a difference in what kind of technology is going 
to be used between the two departments?
    Mr. Rosenzweig. I am aware of public reports of such 
differences----
    Ms. Waters. No, I don't need you to tell me about the 
public reports. Is there a difference between the two 
departments about it?
    Mr. Rosenzweig. Inasmuch as neither the Department of 
Homeland Security nor the Department of State has reached a 
final decision as to which technology either of them supports, 
there can't be a difference. There have indeed been ongoing 
discussions between us as to whether or not----
    Ms. Waters. So you have been discussing this since 2004 and 
there is not a difference?
    Mr. Rosenzweig. We have been discussing this since 2004 and 
exchanging ideas as to which of the ones would be most----
    Ms. Waters. And you have not agreed for 2 years on what 
kind of technology is to be used?
    Mr. Rosenzweig. We haven't reached a final decision.
    Ms. Waters. Okay, so there is a difference.
    Mr. Rosenzweig. No, I did not say that.
    Ms. Waters. Oh, I did.
    Mr. Rosenzweig. Yes.
    Ms. Waters. No, I have concluded that, based on the way you 
have tried to mince your words. 2004, you have been in 
discussion for 2 years. You have a difference. You are not able 
to conclude. That is my conclusion.
    Okay, thank you very much, Mr. Chairman.
    Mr. Hostettler. The chair recognizes the gentleman from 
California for purposes of questions.
    Mr. Berman. Thank you very much, Mr. Chairman.
    I thank the panel for being here, and glad to see the 
Administration doesn't automatically eliminate people from 
consideration based on who they have associated with in the 
past.
    I had one--there was only one particular area that--I have 
never been on a cruise. It is one of the few forms of travel I 
haven't yet taken advantage of. But I didn't know until 
yesterday that if you go on a cruise to other--where you end up 
stopping at other countries, you don't need to have a passport 
to get back in, as long as you have identification, a driver's 
license, something like that, and that this is going to change 
based on laws that we have passed.
    So, for people who don't have a passport and they want to 
do these cruises, they are going to have to go get a passport. 
Apparently, there are some relatively low-priced, relatively 
short-term cruises for which the cost for a family of four of 
getting a passport becomes a very substantial percentage of the 
cost they are paying for the cruise.
    And the question I had is, given that this pass card 
apparently is going to be a passport alternative for land 
travel, why couldn't that presumably much cheaper pass card be 
the basis for implementing this in the context of cruises?
    Because I do think, and it just seems to me, if you rely 
simply on some State documents, the potential for somebody 
joining that cruise in the middle of that cruise, coming back 
with a phony document, is a hole in the system that should be 
plugged.
    But, balancing all these things, could the pass card be an 
alternative to the passport for this program?
    Mr. Rosenzweig. You place me in a difficult position, 
because I am constrained by the rules relating to ongoing 
rulemaking from giving you a definitive answer one way or the 
other as to why or why not a pass card would be acceptable.
    I believe I don't trench on those rules by telling you that 
the pass card alternative, along with other registered 
traveler-type card alternatives, are being considered in the 
context of the rulemaking that will accompany the air and sea 
border. That is not to say that they will necessarily be 
accepted or not.
    But, as part of this, we are going through that analysis of 
all of the plausible alternatives and trying to determine with 
some degree of rationality why certain particular ones ought to 
or ought not to be permitted. That NPRM has not been published 
in the Federal Register, and if I say too much more I risk a 
lawsuit.
    Mr. Berman. Then I am not the first person in Government 
who has ever suggested that. The possibility of this as an 
option is being considered by the Administration?
    Mr. Rosenzweig. Absolutely.
    Mr. Berman. Okay. I won't--without probing into what are 
the different factors, and I am a little curious about why 
something that is okay for a land border crossing wouldn't be 
okay for a cruise ship re-entry, but unless you have something 
quick to say on that, I----
    Mr. Rosenzweig. I will just highlight the factors.
    The passport, which is to an ICAO standard, is the gold 
standard. You know, so in an idealized security world, we might 
think of passports for all citizens across all borders.
    Mr. Berman. Right.
    Mr. Rosenzweig. Plainly, on the northern and southern 
borders, that creates very great facilitation issues, because 
the same factors that you have alluded to are, with respect to 
travelers, and that Mr. Dow has spoken to, exist ramped up to 
an Nth degree on either border. So what we are trying to assess 
as we go forward is the tradeoff between that and how much 
facilitation benefit we get, how much cost we get and how much 
security risk we are running. That is no automatic formula.
    Mr. Berman. Great. Okay. I get it. Thank you. Good to see 
you here.
    Mr. Rosenzweig. Good to see you.
    Mr. Hostettler. The gentleman's time is expired. We will 
now turn to a second round of questions.
    Mr. Harris, on a somewhat related note, in my conversations 
with Canadian officials since taking over the chair for this 
Subcommittee, we have had discussions regarding the border 
situation and the desire for Canadians and, honestly, the U.S., 
to facilitate efficient, effective travel and commerce.
    There have been understandable frustrations voiced on the 
part of Canadian officials with things that have happened since 
9/11. It has gotten a little better, the longer we have gone.
    My question is more of a public opinion, public relations 
question, and that is: Do Canadians understand the extent to 
which the border situation will most likely change if 9/11 
repeats itself and if that repeat is somehow perceived to be 
facilitated by the historical nature of Canada's government's 
dealing with terrorist organizations and citizens?
    And I commend the Canadian government for what has most 
recently happened with the arrests, but is it--it seems that 
your testimony reflects this disconnect, maybe between the U.S. 
and the Canadian government, some officials in the Canadian 
government, as to the profundity of this issue and our 
approaches to it.
    Do Canadian citizens understand the depth to which the 
United States citizens feel about this issue and the possible 
consequence, the probable consequence, of a terrorist attack, 
another terrorist attack, if it should happen in the future?
    Mr. Harris. Well, Mr. Chairman, I think the short answer is 
not particularly. Canada and Canadians have tended to be a 
highly protected species. We have existed under the U.S. 
defensive umbrella, as it were, for more than a generation 
certainly, and we haven't tended to view ourselves as being 
immediately threatened.
    We have considered that we are the world's helpful fixer. 
In a sense, we have been described as the Boy Scout of 
peacemakers, and we revel in that inclination. And it is very 
hard for such a people--and this is a difficulty shared by many 
Western countries--to perceive that they could be the object of 
a rabid hatred, an irrational hatred.
    From that, then, comes an inclination not perhaps to 
appreciate the nature and scope of the threat we face. Indeed, 
I have said publicly that I do believe that Canadians are at 
least a generation behind in understanding that nature and 
scope.
    So that deals, I would say, with the first part of your 
question, sir.
    As regards the understanding of the implications if Canada 
should have some major adverse terrorist development on its 
soil, particularly implicating the United States, I don't think 
that that has been fully digested. It is a process that is 
beginning. There has been a good deal of talk about this in the 
light of the arrest of the 17 alleged terrorists in the Toronto 
area recently. But it is very much a process that is in 
development.
    And it remains to be seen whether the public will be 
galvanized appropriately enough to move their own government. 
The auguries, as I noted, with the new government are really 
rather good, rather promising. But there must be a focus 
maintained, because there are sources of inertia, not excluding 
bureaucracy.
    Mr. Hostettler. Thank you.
    Mr. Harris. Thank you.
    Mr. Hostettler. Ms. Kephart, the Congress has placed into 
law requirements that we significantly increase the number of 
Border Patrol agents in CBP and there has been, as I mentioned 
in my opening statement, as is obvious, a concentration of 
emphasis on the southwestern border.
    Is it your belief, is it your perspective, with what we 
have witnessed recently in Canada, that we need to 
significantly alter our focus not away from the southwestern 
border, but to include significant discussion about the 
northern border and a deployment of significant Border Patrol 
presence on the northern border?
    Ms. Kephart. Thank you, Mr. Chairman. Yes, absolutely, I 
agree with you. There has been an emphasis since 9/11, like 
there was pre 9/11, almost wholly on the southwest border. The 
two borders, northern and southern borders, really represent 
two different kinds of challenges.
    You have over the Southwest the prospect of alien smugglers 
being used by terrorists to come across the border, but really 
that is more of an illegal question. South of the border, you 
certainly have significant terrorist activities, reciprocity 
with visas that make it very easy for movement that way, but 
really, in Canada, you have a different kind of issue.
    You have second-generation jihadists, as they are called, 
born and bred in Canada, brought up, part of the 350 that 
Canadian intelligence talks about now, that are being watched, 
that have been born and bred there. Therefore, they are 
citizens, they have access to passports.
    Right now, though, they don't need to go through the 
process to show a passport. So you have got a different kind of 
problem. Now, if we squeeze on the land borders, there is going 
to be a problem with the physical borders, which is what you 
are getting to. Absolutely, the Border Patrol on the north side 
has always been second tier.
    In fact, when I was on the commission, on the 9/11 
Commission, one of the simple little math stats I did was I 
crunched how many border agents there were on the southern 
border, per mile, versus the northern border, and it has not 
changed much today. On the southern border, there was one 
Border Patrol agent every quarter mile. On the northern border, 
one Border Patrol agent ever 13.5 miles.
    That is a pretty big disparity and one that we certainly 
should consider closing. Hopefully, the Secure Border 
Initiative will help close some of that gap, but we haven't 
seen exactly what the Government intends to do with that yet. 
The procurements are out on that right now.
    Mr. Hostettler. Thank you, Ms. Kephart.
    The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, very much, Mr. Chairman.
    Before I pose some questions, I would like to ask unanimous 
consent to include into the record a statement from 
Representative Brian Higgins, a statement from Representative 
Louise Slaughter on the impact of WHTI and a statement from the 
Business for Economic Security, Tourism and Trade, with the 
comment that the statement does mention the driver's license 
reform as in the Real I.D. Act that I would take issue with.
    But I ask unanimous consent that these three statements be 
submitted into the record.
    Mr. Hostettler. Without objection.
    [The information referred to is available in the Appendix.]
    Ms. Jackson Lee. Let me also applaud Ms. Kephart. I don't 
have a question, but I do want to say that the more we can talk 
about both borders, the more effective we will be on securing 
the homeland.
    And I am of the opinion, inasmuch as enhancement penalties 
from my alien smuggling bill got into, I believe, the results 
of the 9/11 Commission legislation that was named any number of 
names. But, in any event, it passed about 2 years. I think that 
we had followed the 9/11 Commission with the enhancement of the 
Border Patrol at both borders, today, 2006, we would be far 
better off than where we were.
    So I thank you for your leadership on these issues.
    I would offer to say that there is some Achilles heel to 
the Real I.D. Act or the idea of a national identity card, 
because in both Canada and the United States, I would offer to 
say, that if these individuals were citizens who were 
perpetrating terrorist acts, the card or any kind of situation 
like that would not be relevant, because they would have 
identification and they would already be here in the country.
    So I think that intelligence has to be the key. We know 
that the recent fall in terrorists, if you will, that has 
brought great appreciation to the United States military today, 
Mr. Chairman, came about through absolute precise intelligence 
that I think is key to our war on terror.
    So I ask that, Mr. Harris, let me pose this question to you 
about a moratorium on immigration refugee intake until Canada 
gets a handle on its policies. Of course, you mentioned about 
funding from Saudi Arabia, I guess of mosques inside of Canada. 
I don't see where those elements have to do with providing 
secure documents for travel back and forth, but I would welcome 
your discourse on that issue.
    I do think, again, that we have the obligation, as Mr. 
Rosenzweig has said, to have the best documents we possibly can 
have, and we will be scrutinizing any contractors that are 
falling down on the job. But I would be interested in your 
comments on that.
    I would like to follow up with Mr. Dow, in particular, to 
give me his assessment on the pass cards as the right model for 
meeting the WHTI requirements and what we can do to ensure that 
that card works and, to Mr. Rosenzweig, again, we coming back, 
but if we gave you an extension, would you welcome it and be 
able to utilize it in an effective way.
    Let me go to Mr. Harris.
    Mr. Harris. Thank you very much, Congresswoman Jackson Lee. 
I suppose there are a number of questions implicated in this.
    First of all, the issue of a possible immigration and 
refugee moratorium, One of the most useful things I might do is 
point to a masterwork on the issue of security inadequacies in 
Canada, produced by former Canadian ambassador Martin Collacott 
at the Fraser Institute in British Columbia, Canada. He has 
done considerable work tying the immigration and refugee and 
related questions into the larger concern about national 
security.
    I would say that the immigration side presents us with two 
fundamental and pressing challenges. First of all, the numbers 
involved, 230,000 people being welcomed by 31 million people 
each year, and then a refugee that has seen increases from 
1977, when there were 500 refugee claimants, to the tens of 
thousands we welcome each year, these days presents us with 
some filtering problems that may be insuperable and are very 
definitely compelling as issues.
    Deriving from this is the sheer question of absorptive 
capacity of the Canadian context. Can we--are we in a position, 
if not economically, then in broader terms, able to welcome 
people as they should be welcomed, with full integration?
    And this has become difficult, in some respects, because 
there are, of course, some strains of newcomers from certain 
parts of the world, narrow strains to be sure, who are not 
familiar with the liberal, pluralist, tolerant, democratic 
context that we expect from our country.
    And we like to consider ourselves somewhat progressive. 
Perhaps we have flattered ourselves in that sort of respect. 
But we would like to keep it that way, if we can, and what we 
have increasingly seen is that with considerable numbers of 
people, who may include those who are somewhat radical and 
intolerant, it is very difficult then to dilute some of those 
tendencies.
    Rather, the opposite can occur. We can see enclaves develop 
and so on. So there is a risk to the tolerance of Canada, 
broadly speaking.
    Ms. Jackson Lee. But you don't want to close your doors to 
legitimate refugees who you have been so gracious in welcoming 
as they have been fleeing enormous persecution.
    Mr. Harris. And that is--I am terribly sorry. That is 
indeed one of the issues, and as Ambassador Collacott has 
pointed out, that is precisely what we are doing now in the 
form of absurdly loose interpretations of what a convention 
refugee is.
    Our interpretation in operational terms is so incredibly 
broad it has virtually nothing to do with what the United 
States, Britain, France, any number of Western countries would 
consider a refugee. And, therefore, the tremendous mass and 
backlog of refugee applicants, claimants--asylum seekers, as we 
would say in the United States--is quite literally preventing 
those people in genuine danger, who would genuinely qualify as 
convention refugees, from making application and getting in.
    Mr. Hostettler. The gentelady's time has expired.
    Ms. Jackson Lee. May I just have the two gentlemen answer 
the two questions quickly?
    Mr. Hostettler. We will go to another round of questions, 
but if we could move on to another question from another 
questioner, but we will come back and I will have a question 
myself.
    So, the chair recognizes the gentleman from California for 
purposes of questions.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    This is an important issue, and my previous absence does 
not reflect a lack of interest in it. It is just we have 
competing requirements in this House.
    Mr. Dow, as I read the testimony, the organizations 
continue to support the program we are talking about, the 
Western Hemisphere Travel Initiative, despite what appear to be 
failures by DHS to prepare for implementation.
    What advice would you give or what do you think that 
Secretary Chertoff should do at this point to get this moving 
to implementation?
    Mr. Dow. Well, you are absolutely right. We totally support 
this initiative. It is just a matter of the advice we would 
give is to issue clear timetables that will not change when we 
can deliver. That is why we support what Senator Stevens and 
Leahy have put as a date of June 1st, 2009. We believe that is 
doable and we think we should do it right.
    So I think it is let us get the clarity. Let us get State 
and Homeland Security to agree on technology and let us put it 
in with the proper communications, and we think it is the right 
way to go.
    Mr. Lungren. I don't want to pick on any particular 
country, but do you think that the events that we have seen 
unfold in Canada over the last 10 days would change what you 
have just said about the date?
    Mr. Dow. No, I don't, because the concerns that we have 
about the date are the reality of getting it done. As was said 
earlier, this has been legislation for 2 years. We are 
presently still talking about the technology, about the vendor, 
about the procurement, and it is the reality.
    Mr. Lungren. I hate to ask you this question, but my late 
father, 62 years ago on this date, was preparing to enter 
Normandy, and as a front-line medical officer later earned a 
Purple Heart because his medical aid station was so close to 
the front lines. And I always recall that it took a shorter 
period of time for us to land on the beaches of Normandy and 
get to Berlin than it does for us to do a pilot project.
    What makes you think that Department of Homeland Security 
is going to be ready on that date in 2009?
    Mr. Dow. I do not know. We believe they will. We have been 
watching their operations, their intentions, we have just been 
watching the progress and are putting the reality of the date. 
I think December 2009 is a reasonable and rational date, and 
that is what we are asking for, is for some rationale here.
    Mr. Lungren. I just hope the terrorists decide to wait 
until that date as well.
    Mr. Harris, you have talked about the fact that Canada is 
now the target of terrorism, a view supported by public 
statements by Canadian security officials. Are you satisfied 
Canada has done what it needs to do to increase security 
measures. In the past, it appeared that many Canadian 
politicians were opposed to the improved document security 
required by this program we are talking about there today.
    In the aftermath of this most recent plot uncovered in 
Canada, do you believe that we are going to see an improvement 
in Canada's homeland security?
    Mr. Harris. It is an impossibly difficult question to 
respond to, Congressman, because even as we have seen some 
gradual improvement--we have seen some money put into the 
challenge over the last few years since 9/11, to be sure. We 
seem to see promise of further. We have the new Anti-Terrorism 
Act brought in and so on.
    The problem is that we appear to be presenting ourselves 
with a near-insuperable challenge in the form of the 
immigration and refugee situation, which, as I have indicated, 
now seems to be spinning into home-grown and extended threats.
    We are a very, very open country on a number of levels, 
including psychologically, so we have not been on the alert and 
we have not been an effective constituency as a national public 
for the very kinds of priorities that we should be pursuing.
    So, the short answer is, a good deal has been done but it 
is far from clear that we are anywhere reassuring in the safety 
we offer our people.
    Mr. Lungren. I am sorry I wasn't here to hear your 
testimony earlier, Mr. Rosenzweig, but where are we in DHS with 
this? I mean, you may have answered this, but just for me, 
could you tell me where we are?
    I am happy with a lot of things that have been done, but I 
am dissatisfied, as I observe the Congress and the 
Administration, with the lack of urgency I have seen in the 16 
or 17 months or 18 months since I returned to the Congress 
about really getting serious about some of this stuff.
    This was a specific congressionally mandated program, one 
we think has a basis in fact for creating it, and now we are up 
against the criticisms of it not being implemented for all 
these reasons. And so we are in the conundrum of do we give up 
and say, ``Oh, my God, we cannot put this tremendous obstacle 
to the kind of commerce we want and the travel we want?''
    We are not looking to punish those folks, but at the same 
time, do we just give up and say, well, that was a great idea, 
Congress, but it is just too tough for us to be able to 
implement it, so with a lot of your other good ideas, we just 
put them on the shelf or we postpone them to 2009, or maybe 
2010, or 2011 or 2012. What do we do?
    Mr. Rosenzweig. I share your urgency. Indeed, every day of 
delay is a dangerous day. I know that some members of the staff 
have received a classified briefing that can elaborate on that 
in far greater detail. It is far too early to declare defeat.
    I have every expectation that we will hit the deadlines, 
notwithstanding Mr. Dow's skepticism. We began this process 
with an advanced notice of proposed rulemaking that was out 
last year precisely because we understood that it was a complex 
process, also because we wanted to provide the people who 
travel and who are going to have to adjust their behaviors the 
greatest degree of advanced notice of likely changes that will 
be coming down the pike.
    So that is an unusual step, but we took that precisely 
because it was a complex decision and we achieved that. We will 
have a decision on precisely which technologies we are going to 
be deploying within a matter of weeks, I anticipate. We are 
going to then be in a position to go forward with the 
procurements that are necessary.
    We are going to have fielded a notice of proposed 
rulemaking on the air and sea portions of this, as we have 
discussed, in more than enough time to have the final rule 
issued before the currently scheduled implementation date of 
January 1, 2007.
    We are going to then turn to the more interesting and 
difficult and, candidly, challenging, problem of defining 
exactly what requirements we are going to have to put in place 
on the land borders, where more than a million people transit 
each day. And we are going to hit that mark as well.
    I said earlier that a good checkup in 6 months or a year 
from now, or both, would I think verify that. And if we don't 
hit those marks, you will rightly be in a position to look at 
us and ask us if we really can make the great. But, at this 
point, 19 months in advance of the statutory implementation 
date, to say that we can't go from where we are, which is a 
great deal of the way, to the final resolution in that time 
frame, is just a premature declaration of inadequacy.
    Mr. Lungren. I thank the Chairman for his indulgence.
    I would just say that I would much rather have a hearing 19 
months prior than what we have often done with some of the 
marks on DHS, which is 19 months after and being told that we 
still can't hit that mark.
    Thank you, Mr. Chairman.
    Mr. Hostettler. Thank the gentleman. Point well taken.
    I have just one more question.
    Mr. Harris, our 5-minute requirement for opening 
statements, I cut you short, and I noticed at the conclusion of 
your written testimony, you offer some solutions with regard to 
the Canadian government to deal with this issue that we are 
talking about in general, and terrorism and its effect on 
Canada and its neighbors.
    Would you take the time to elaborate on those 
recommendations?
    Mr. Harris. Yes, thank you, Chairman Hostettler.
    I said that, in my own view, if the new Conservative 
government is promising, as it does appear to be, is sincere in 
coming to grips with the dire problem we now have in Canada, it 
will do several of the following. First of all, consider a 
moratorium on immigration and refugee intake until we get a 
handle on our policies and processes for mitigating related 
security risks.
    Second, provide appropriate resources and training to the 
police and security and intelligence community, including 
reliable travel document and other identification systems. And, 
third, develop the wherewithal to effectively eliminate the 
risk of Islamic extremists and their sympathizers surfacing in 
strategic positions within the machinery of the government of 
Canada and within our police, security and intelligence forces.
    Also, bring an end to government and especially police and 
security organizations' outreach with Canadian Arab or Islamic 
representative groups where there is an inappropriate refusal 
on their part to condemn by name Hezbollah, Palestinian Islamic 
Jihad and similar supremacist terrorist organizations.
    I would also call, fifth, for the elimination of Saudi 
Arabian funding of mosques, academic and other institutions. 
And then finally, without fear or favor, the government should, 
without political correctness, either, tell it like it is to 
Canadians about terrorism and its sources. If the government 
can meet these requirements of a report card, if you will, I 
think we will be doing extremely well.
    If I might just finish, Mr. Chairman, by saying that with 
regard to the possibilities of extension, as a Canadian, I am 
acutely aware of the potential damage that any kind of early 
imposition of some of the contemplated arrangements might make. 
Canadians rely quite desperately for trade with the U.S., 
naturally enough.
    However, as they always told us in law school, you have got 
to go back to first principles. We are in a life and death 
struggle and we are in a race against time, as the evidence of 
recent arrests might suggest. I would therefore respectfully 
suggest that it is precipitous at this time to think too 
seriously about granting an extension.
    Thank you.
    Mr. Hostettler. Thank you, Mr. Harris. Sound advice, not 
only for Canada, but to the extent that other nations have not 
taken your advice, we should do it as well.
    The chair recognizes the gentlelady from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Mr. Rosenzweig, might I pointedly ask the 
question again, if we were give you a gift of an extension, 
would that help the Department of Homeland Security in making 
sure that the process and technology were hand in glove? 
Because, listening to Mr. Harris and the burdens that he 
believe Canada now faces, we should not ignore it.
    I don't know whether we can entertain the reform of 
Canadian immigration laws in this committee, but I do expect 
being on notice of their concerns, we have to be diligent for 
the northern and southern border. And I might add that, again, 
I will agree with Ms. Kephart, and I am not asking you 
questions for any other reasons other than you have laid out, 
certainly, a very, very strong argument for bringing back the 
9/11 Commission and having them be our continued partner.
    But the time frame, would that be helpful to you?
    And, Mr. Dow, you were going to comment on the pass 
document. And I don't consider you an immigration, if you will, 
specialist, but you do have travel and commerce on the northern 
border. You might comment on the concerns of Mr. Harris, just 
as you heard them here today, because I think it is important 
that the travel industry should not be labeled as not having 
concerns, but that you are looking for a way that we can 
facilitate our security with the slow ingress and egress of 
people and trade.
    But, Mr. Rosenzweig, your willingness, if someone was to 
give an extension on this 2007, 2008 date?
    Mr. Rosenzweig. If Congress were to pass an extension, my 
goal would be not to use it. Every day of delay is a day of 
danger. That isn't a prediction, but Congress has in its wisdom 
moved to close this loophole very good and sufficient reasons, 
so well laid out by the 9/11 Commission, and we are working as 
fast as we can to close it as rapidly as possible. And our 
intention would be to promulgate rules and technology that 
close it on the first day we are capable of that.
    Ms. Jackson Lee. I like that answer, because you have said 
keep the pressure on, if we provide that extension, it will be 
of absolute necessity and crisis.
    Mr. Dow, quickly, as I understand the hearing is coming to 
a close. Mr. Dow, thank you very much for your testimony.
    Mr. Dow. Well, thank you for your support of this industry. 
I know how important it is for Texas. I support just what this 
gentleman has said. We want to see this done correct and right 
and we believe the timing will be there.
    We do support a pass card, an alternative, cheaper document 
that is secure and has all the parameters of what a passport 
would have. So we support that, we think it is the right thing 
to do. We just think the timing for the machinery that has to 
be put in place, the technology and the issuance and the 
distribution, if Mr. Rosenzweig delivers early, that is 
terrific, it gives us the time to get the communications out 
that are critical.
    Ms. Jackson Lee. Thank you.
    And, Mr. Harris, thank you.
    I assume that you want to make sure that we are safe on 
both sides of the border, Mr. Dow, as we travel back and forth.
    Mr. Dow. It goes without saying, one incident will destroy 
our industry.
    Ms. Jackson Lee. Thank you.
    I yield back. Thank you.
    Mr. Hostettler. Thank the gentlelady.
    I want to thank our panel of witnesses for appearing today, 
for enduring and your contribution to the record on this very 
important issue.
    All Members will be given 5 legislative days to make 
additions to the record.
    The business before the Subcommittee being completed, 
without objection, we are adjourned.
    [Whereupon, at 1:40 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress from the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims

    The Immigration and Nationality Act (INA) requires all U.S. 
citizens to bear a valid passport when entering and departing the 
United States, but it gives the President the authority to make 
exceptions. This authority has been used to waive the passport 
requirement for U.S. citizens traveling between the United States and 
any country, territory, or island adjacent thereto, in North, South, or 
Central America, excluding Cuba.
    Exceptions also have been made to the INA passport requirements 
that apply to nonimmigrant aliens seeking temporary admission to the 
United States. For example, Canadian citizens, British subjects from 
Bermuda, Mexican citizens using Laser Visas, and certain aliens from 
other islands may enter the United States without presenting a 
passport.
    The 9/11 Commission recommended eliminating the Western Hemisphere 
Exception for security reasons. I do not think it is necessary to 
eliminate the exception, but we do need to enhance the security of the 
documents that are used as alternatives to passports. This is 
illustrated by an oversight hearing we had three years ago on ``John 
Allen Muhammad, Document Fraud, and the Western Hemisphere Passport 
Exception.'' In addition to being a sniper, Muhammad made and sold 
fraudulent documents for entering the United States as a U.S. citizen. 
He was able to make U.S. drivers' licenses and corresponding birth 
certificates in his home with a computer, a scanner, a template for the 
driver's license and for the birth certificate, a photograph, and a 
laminating machine.
    The need for more secure alternatives to passports was addressed by 
the Intelligence Reform and Terrorism Prevention Act of 2004. Section 
7209 of this Act established the Western Hemisphere Travel Initiative 
(WHTI), which requires the Department of Homeland Security (DHS), in 
consultation with the Department of State (DOS), to develop and 
implement a plan to require a passport or other document, or 
combination of documents, deemed to be sufficient to establish identity 
and citizenship status for all travelers entering the United States. 
The deadline for fully implementing the WHTI is January 1, 2008.
    On September 1, 2005, DHS and DOS submitted a proposal to implement 
section 7209 in two phases. On December 31, 2006, it will be applied to 
all air and sea travel to or from Canada, Mexico, Central and South 
America, the Caribbean, and Bermuda. Then, on December 31, 2007, it 
will be extended to all land border crossings as well as air and sea 
travel.
    Section 7209 also includes provisions to expedite the admission of 
frequent travelers by establishing a registered traveler program. On 
January 17, 2006, DHS and DOS announced plans to implement a new 
registered traveler program by the end of the year that will be known 
as the ``People Access Security Service'' (PASS) system. It will 
utilize a wallet-sized identification card known as the ``PASS-card'' 
that will have a biometric identifier.
    I am concerned about whether the current WHTI deadlines of January 
1, 2007, for air and sea travel, and December 31, 2007, for all other 
travel, provide DHS and DOS with enough time to implement the 
Initiative properly. Whatever technology is chosen, designing, 
developing, testing, and evaluating the card and reader system will 
take time. And, when a card and related equipment are deemed suitable, 
DHS and DOS will need to develop and implement operating procedures and 
policies to issue and inspect the cards.
    I also am concerned about the impact that the WHTI might have on 
tourism and trade in the United States. It is difficult to predict what 
that impact might be. Many frequent travelers already have passports, 
and no one knows how citizens without passports will react to the new 
requirements. DHS is in the early stages of studying costs and 
benefits, but much more work is needed.
    It is apparent that permitting people to enter the United States as 
American citizens on the basis of drivers' licenses and birth 
certificates does not provide an acceptable level of security. WHTI 
would require and make available more secure documents, but this 
Initiative needs to be implemented properly, which includes taking care 
to secure the border without unduly delaying or discouraging people 
from traveling between the United States and the other Western 
Hemisphere countries.
    Thank you.
                               __________

      Prepared Statement of the Honorable Louise M. Slaughter, a 
         Representative in Congress from the State of New York

    Mr. Chairman and Ranking Member Jackson Lee, I commend the 
Judiciary Committee's Subcommittee on Immigration, Border Security, and 
Claims for holding an oversight hearing on the Western Hemisphere 
Travel Initiative (WHTI). WHTI is of critical concern to the district I 
represent, and is quickly surpassing softwood lumber as the top issue 
in U.S.-Canada relations.
    WHTI should not be viewed in a vacuum; it is essential that 
Congress understand the long-standing ties between the U.S. and Canada. 
The two countries are bound by shared values, culture, history, and 
geography. My constituents do not think of Canada as another country, 
but as one community closely intertwined. A constituent of mine likened 
it to crossing the Potomac River from D.C. into Northern Virginia.
    More than a relationship of shared proximity and principles, the 
northern border represents a major component of our global economy. 
U.S.-Canada trade supports 5.2 million jobs and generates tens of 
billions of dollars in annual revenue. Western New York includes five 
bi-national bridges, including the Peace Bridge in Buffalo, which is 
the nation's second busiest border crossing. $160 million in trade and 
20,000 vehicles cross the Peace Bridge each day.
    In addition to its importance to international trade, the Niagara 
frontier is a gateway for millions of tourists every year. Tourism is 
the fastest growing industry in Buffalo-Niagara. Our economy is heavily 
dependent on Canadian visits to our sporting events, cultural 
institutions, and local wineries. A loss of just a fraction of Canadian 
visitors to Buffalo-Niagara would cripple an already fragile Western 
New York economy.
    Therefore, our border security policies must take into account that 
the northern border is a vital conduit for travel and trade. Let me 
make it clear that I support the intent of WHTI. In the post 9/11 
world, it is imperative that we know that those entering our country 
are who they say they are, mean us no harm, and have the secure 
documents to prove it. But there are ways to implement WHTI that are 
smart and secure, and make certain that our border remains open for 
business.
    Regrettably, I am convinced that the Department of Homeland 
Security (DHS) and the Department of State's (State) proposed plans for 
WHTI will unintentionally close our borders and be economically 
disastrous for the U.S. economy.
    While we still have more questions than answers at this point, it 
is clear that DHS and State's proposed WHTI regulations fail to 
appreciate the close cultural and economic ties between the U.S. and 
Canada. Further, the Bush administration's vision for WHTI ignores 
recommendations of the 9/11 Commission and key provisions of the 
Intelligence Reform and Terrorism Prevention Act of 2004. Consequently, 
WHTI does not effectively improve our border security and will severely 
curb legitimate trade and travel. The reasons are twofold: first, the 
documents DHS and State want to require cross-border travelers to carry 
are prohibitively expensive, take weeks to obtain, and do nothing to 
help Canadian visitors travel to the U.S.. Secondly, DHS and State are 
failing to improve programs that expedite low-risk travelers through 
the inspections process--a cornerstone of the 9/11 Commission's border 
security recommendations.
    I first will address the problems with the documents that DHS and 
State want travelers to carry. DHS and State continue to insist that 
U.S. travelers will need to show a passport or an alternative yet-to-
be-defined travel card--dubbed the People Access Security and Service 
(PASS) card--to re-enter the country from Canada. I understand from DHS 
and State that the development of the PASS card is an attempt to give 
travelers a low-cost alternative to a passport. However, the agencies 
expect that the card will still cost around $55 dollars and take 4-6 
weeks to obtain.
    My constituents have made it clear that $55 is too high a cost for 
travel into Canada. We cannot expect a family of four on a tight budget 
to spend over $200 to cross into Canada for a day-trip. In addition, we 
know that families decide to visit Niagara Falls, on average, 14 days 
before a trip. Yet the PASS card will still take 4-6 weeks to obtain, 
meaning that tourists and spontaneous travelers will stay home or 
vacation elsewhere.
    But do not take my word on it. According to a Zogby International 
poll commissioned by the Business for Economic Security, Tourism & 
Trade Coalition, only 30 percent of Americans are willing to pay more 
than $25 dollars for a card that will only be good for travel to Canada 
or Mexico. Put another way, 80 percent of U.S. northern border 
residents have signaled that they will not buy a new $55 dollar card to 
simply travel into Canada.
    The PASS card is an unrealistic option for border residents and 
tourists because of its costs, limited utility, and long application 
process. While DHS continues to insist that the U.S. is working with 
Canada in unison to develop the PASS card, the Canadian government has 
publicly stated that they have no plans to reciprocate the card for 
their residents.
    I was in Ottawa yesterday to testify on WHTI before the Standing 
Senate Committee on Banking, Trade and Commerce. I met with Public 
Safety Minister Stockwell Day, Canadian Ambassador to the U.S., Michael 
Wilson, and a group of Canadian Senators and Members of Parliament. In 
each of these meetings, officials made it clear that they have no 
intention of creating a PASS card for their residents. In fact, Prime 
Minister Harper publicly declared last week that Canada will not 
reciprocate with a PASS card at this time.
    I cannot blame Canada for its reluctance to join us in this 
endeavor because DHS and State continue to disagree on the technical 
specifications of the PASS card. DHS prefers that the PASS card be 
embedded with one type of radio-frequency technology (RFID), while 
State is pushing for the technology currently included in e-passports. 
Complicating matters is the fact that a subcommittee within DHS' 
Privacy Office just released a draft report critical of DHS' push to 
put RFID technology in the PASS card. The subcommittee writes, ``RFID 
appears to offer little benefit when compared to the consequences it 
brings for privacy and data integrity. Instead, it increases risks to 
personal privacy and security, with no commensurate benefit for 
performance or national security.'' The subcommittee concludes, ``. . . 
we recommend that RFID be disfavored for identifying and tracking human 
beings.'' These interagency disputes on the PASS card must be 
reconciled before we can credibly expect Canada to follow our lead by 
creating their own card.
    In sum, DHS and State are moving forward with two documentary 
options--a passport and the PASS card--that American and Canadian 
residents have made clear they will not purchase or cannot obtain. This 
should be a wake-up call to DHS, State and to Congress.
    The 9/11 Commission and Congress certainly did not intend for new 
documentary requirements to bring international travel and commerce to 
a halt. In fact, their report noted that, ``[o]ur border screening 
system should check people efficiently and welcome friends. Admitting 
large numbers of students, scholars, businesspeople, and tourists fuels 
our economy, cultural vitality, and political reach.''
    The 9/11 Commission understood the importance of border policies 
that improve both our homeland security and economic security. DHS and 
State need to follow suit by developing alternative documents that are 
low-cost, easily obtainable, and do so in formal consultation with the 
Canadian government.
    However, documentation concerns are not the only problems with 
WHTI. DHS and State are also ignoring key provisions in the 
Intelligence Reform and Terrorism Prevention Act of 2004 that were 
designed to expedite the border inspections process for low-risk and 
frequent travelers.
    The 9/11 Commission urged Congress to improve programs for frequent 
travelers. They noted, ``[p]rograms to speed known travelers should be 
a higher priority, permitting inspectors to focus on greater risks. The 
daily commuter should not be subject to the same measures as first-time 
travelers. An individual shall be able to preenroll, with his or her 
identity verified in passage.''
    Accordingly, Congress included a number of provisions in the 
Intelligence Reform bill that stressed the importance of frequent 
traveler programs. Section 7208 (k) of the bill reads, in part, ``the 
process of expediting known travelers across the borders of the United 
States can permit inspectors to better focus on identifying terrorists 
attempting to enter the United State.''
    Expansion of existing frequent traveler programs should be an easy 
and important step forward in ensuring that we have a smart and secure 
northern border. For example, the NEXUS and FAST programs are joint 
ventures between the U.S. and Canadian governments, and are designed to 
simplify border crossings for pre-approved, low-risk travelers and 
commercial truck drivers. Applicants undergo a federal background check 
more stringent than the checks for a passport, and must complete an in-
person interview with a Customs and Border Patrol (CBP) officer. 
Accepted travelers get access to expedited border crossing lanes, and 
do not have to stop to be inspected. The NEXUS and FAST programs help 
frequent travelers and truckers get across the border quickly, while 
allowing our border inspectors to use their limited resources to better 
inspect high-risk travelers.
    While DHS continues to insist that the expansion of NEXUS and FAST 
is a priority, the fact remains that a number of problems have kept the 
programs from being effective.
    First, NEXUS and FAST are only available at a small number of 
border crossings; 11 for the NEXUS program and 10 for the FAST program.
    Secondly, NEXUS and FAST have a cumbersome application process. 
Applicants must travel to an enrollment center for an in-person 
interview with a CBP officer, but there are only a handful of 
enrollment centers spread out across the northern border. In Buffalo, 
an applicant must travel to Canada just to apply. The Niagara Falls 
Bridge Commission has offered space for a center, but CBP continues to 
resist opening more facilities. The application fee of $50, like the 
proposed PASS card fee, is prohibitively expensive for many applicants, 
and has been credited by my local Chambers of Commerce with keeping 
enrollment in the NEXUS and FAST programs unacceptably low.
    DHS has also been reluctant to market NEXUS in the U.S., and 
efforts by the private sector to market NEXUS have been met with 
resistance. For instance, the Buffalo and Fort Erie Public Bridge 
Authority installed signs advising drivers to ask for a NEXUS 
application at the inspection booth, but the CBP agents would not hand 
them out.
    Finally, the timeframe that NEXUS and FAST lanes are open needs to 
be extended. NEXUS lanes are not open 24 hours and in some instances 
are not available until 11 AM, making the NEXUS card all but useless 
for daily commuters.
    DHS has yet to address any of these issues, and has not requested 
adequate funding in the FY 2007 budget to expand the programs. Further, 
DHS refuses to even acknowledge that NEXUS and FAST will be acceptable 
under WHTI. Not only has DHS declined my requests to confirm that these 
programs will be acceptable alternatives, they have also refused to 
give Canadian officials any assurances that NEXUS and FAST will 
continue to be viable options for their citizens as well.
    According to the State Department, 48 percent of the annual 
northern border crossings are made by just 400,000 people. These are 
the frequent travelers that DHS and State need to get enrolled in 
frequent traveler programs. Yet NEXUS enrollment currently stands at 
just 75,000. Even worse, CBP expects to only enroll 50,000 more 
individuals in the NEXUS program through 2011.
    Congress must insist that DHS follow through with the Intelligence 
Reform bill's mandate to expand the NEXUS and FAST programs. The 
barriers for entry must be reduced so that NEXUS and FAST are as 
synonymous with cross-border travel as E-ZPass is with thruway travel.
    Last year, the House accepted an amendment I offered to H.R. 1817, 
the Fiscal Year 2006 Homeland Security Authorization bill, that 
streamlined the NEXUS and FAST application process, merged the NEXUS 
highway and NEXUS Air programs, and encouraged greater public outreach 
for the programs. But more must be done if NEXUS and FAST are to reach 
their full potential imagined by the 9/11 Commission. For these 
reasons, I have introduced H.R. 5286, the Secure Traveler Improvement 
Act of 2006. My legislation breaks down the barriers of enrollment for 
frequent traveler programs, and expands NEXUS and FAST across the 
northern border. Key provisions include:

        <bullet>  Sets the price of a NEXUS/FAST card at $20 and waives 
        the first-time renewal fee.

        <bullet>  Requires that NEXUS/FAST be acceptable documents 
        under the Western Hemisphere Travel Initiative, as well as 
        acceptable for re-entry into the U.S. at any border crossing.

        <bullet>  Requires NEXUS/FAST technology to be installed at 
        additional crossings in North Dakota, Michigan, New York, 
        Montana and Minnesota.

        <bullet>  Establishes a minimum of six new enrollment centers 
        across the northern border, and creates new mobile enrollment 
        centers that will sign up applicants in low-participation 
        areas.

        <bullet>  Harmonizes the enrollment and security requirements 
        for NEXUS and FAST.

        <bullet>  Creates an online-application process and requires 
        DHS to carry out a public awareness campaign.

    I hope that members of this Committee will support H.R. 5286. The 
bill was developed in close consultation with the CAN/AM Border Trade 
Alliance and has been endorsed by the American Society of Travel Agents 
and the Binational Tourism Alliance.
    We are not alone in our calls for comprehensive changes to WHTI. 
Former 9/11 Commissioner, Senator Slade Gorton, denounced DHS and 
State's WHTI plans last week. In his testimony in front of the Senate 
International Relations' Subcommittee on International Operations and 
Terrorism, Senator Gorton concluded that, ``[u]ultimately both sides of 
the border stand to lose by current plans to implement the Western 
Hemisphere Travel Initiative.''
    Senator Gorton also confirmed that DHS and State are not properly 
implementing the Intelligence bill's provisions and calls into question 
the security benefits of WHTI. He recommends that ``[g]reater emphasis 
[must] be placed on securing the Western Hemisphere perimeter and 
weeding out troublemakers . . . we cannot afford to inconvenience and 
deter innocent visitors to our country because we suffer from a case of 
mono-vision.''
    A 9/11 Commissioner is not the only authoritative voice troubled 
with WHTI. At my request, the Government Accountability Office (GAO) 
has been tracking implementation of WHTI since January 2006. On 25 May 
they established in a letter to me that DHS and State face significant 
problems in developing a workable WHTI plan.
    GAO wrote, ``[a]chieving the intended security benefits of the 
Travel Initiative by the statutory milestone date, without simply 
requiring all travelers to carry a passport, appears in jeopardy, given 
the volume of work that remains.'' GAO observes that DHS and State have 
made very few programmatic decisions and did not request WHTI-related 
funds in the FY 2007 budget. More alarming is that GAO believes DHS has 
yet to reach a common understanding of how WHTI links to the overall 
strategy of securing our borders.
    It should be of great concern to all of my colleagues that DHS and 
State are pursuing a deeply flawed WHTI plan. Congress must step-in and 
insist that DHS and State change course, otherwise our border security 
will remain weak and the U.S. economy will suffer the consequences.
    The challenge becomes how best to secure our northern border while 
appreciating the important cultural and economic ties between the U.S. 
and Canada.
    I have a few ideas that I think answer this challenge and improves 
WHTI. They are wrapped into legislation I introduced this week with 
Congressman John McHugh called the Protecting American Commerce and 
Travel Act (PACT Act).
    The PACT Act has two parts. The first extends the WHTI deadline 
from January 2008 to September 2009. An extension will give the U.S. 
government the time necessary to implement smart and secure border 
policies. GAO has made clear that the 2008 deadline will not likely be 
met; it is now up to Congress to send DHS and State back to the drawing 
board with specific instructions. In that regard, the second part of 
the PACT Act is designed to ensure that any alternatives to a passport 
are secure, low-cost and easily obtainable, and that these alternatives 
are worked on together by the U.S. and Canadian governments.
    First, the extension. As you are likely aware, the Senate adopted 
an amendment to their immigration bill that extends the deadline until 
June 2009. My bill echo's this extension but moves the deadline until 
September 2009. While the Senate agreed on June 2009, I do not think it 
makes a whole lot of sense to implement new crossing requirements in 
the middle of the summer tourist season.
    Just as importantly as an extension, I believe it is imperative 
that Congress gives DHS and State concrete expectations for the 
implementation of WHTI. An extended deadline does little on its own to 
get WHTI ``right.'' It could just be more time for the agencies to drag 
their feet as communities on both sides of the border guess about when 
and if WHTI will go into effect.
    For these reasons, the PACT Act lays out a series of qualifications 
and benchmarks that DHS and State must meet in implementing WHTI. It 
also requires that DHS formally work with the Canadian government to 
develop alternatives suitable for residents of both countries.
    First, the PACT Act requires DHS to evaluate existing documents--
such as driver's licenses--and determine the feasibility of improving 
these documents so that they might work under WHTI. My bill conditions 
implementation of WHTI on DHS developing standards for securing 
driver's licenses with the necessary security features to be adequate 
to cross the border. We should not waste taxpayers money and create new 
cards if small fixes to a document most folks in the U.S. already 
have--a driver's license--will work just fine.
    If DHS and State are serious about the PASS card, then they must 
understand that the card will only be an attractive option if it is 
inexpensive and easy to obtain. My legislation sets the cost of the 
PASS card at no more than $20 and requires that an applicant receive 
the card within 10 business days of mailing in their application.
    This legislation also encompasses the provisions in my Secure 
Traveler Improvement Act. More broadly, NEXUS and FAST provide a model 
for how the U.S. and Canada can work together to achieve stronger 
security while facilitating low-risk trade and travel. With all that is 
at stake for our border economies, both governments should use the 
NEXUS and FAST programs as a blueprint for formally working together on 
WHTI.
    In addition, the PACT Act requires DHS and State to develop a plan 
to re-admit into the country U.S. travelers who do not possess a 
passport or an acceptable alternative document. This provision will 
allow a spontaneous traveler--such as Aunt Tilly from Kansas--the 
ability to drive over to Niagara Falls, Ontario for a couple of hours 
before heading back to Kansas, without having to go to the expense of 
purchasing a new document.
    Finally, the PACT Act requires DHS and State to complete a cost-
benefit analysis of their final WHTI plan before implementation. A 
cost-benefit analysis will help DHS evaluate secure and cost-effective 
options for implementing WHTI, while avoiding adverse effects on 
legitimate travel and trade with Canada. This analysis will have to 
prove that the benefits of WHTI outweigh the costs to commerce and 
travel. This is a high threshold for DHS and State to meet, but is an 
analysis that is required by Executive Order 12866.
    These are just a few key features of the PACT Act. It is a 
bipartisan effort to bring common-sense solutions to this critical 
problem. I hope my legislation will be useful to this Committee in its 
evaluation of WHTI.
    In closing, Congress faces a critical decision. We cannot allow the 
current WHTI proposal to unnecessarily destroy the economic and 
cultural ties between the U.S. and Canada. If we do not move to fix it, 
DHS and State will continue down this course that will be disastrous 
for both countries. We can simultaneously achieve both strong border 
security and economic security with Canada, but only if Congress acts 
soon.
    Again, thank you Mr. Chairman and Ranking Member Jackson Lee for 
holding this hearing. I look forward to working with you on this 
important issue.

 Letter from Corey P. Saylor, Government Affairs Director, Council on 
                   American Islamic Relations (CAIR)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Prepared Statement of Business for Economic Security, 
                        Tourism & Trade (BESTT)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Prepared Statement of the Honorable Brian Higgins, a Representative in 
                  Congress from the State of New York

    Members of the committee, thank you for the opportunity to be here 
today on behalf of my constituents in New York's 27th congressional 
district. I have the honor of representing New York's Erie and 
Chautauqua counties, which include Buffalo, New York and the Peace 
Bridge crossing into Canada.
    The people of Western New York have had close relationships with 
our Canadian neighbors for hundreds of years. Our communities are woven 
together and our economies are interdependent. Seventy-eight years ago 
this cooperative spirit resulted in the construction of the Peace 
Bridge between Buffalo, New York and Fort Erie, Ontario. Our mutual 
investment in the Peace Bridge has paid dividends many times over, 
producing commercial and economic development that would never have 
been possible if citizens of each country did not have easy access to 
the other side of the border. In fact, the Peace Bridge and its easy 
flow of traffic to Canada is largely responsible for saving jobs as 
demonstrated recently by Ford, which spared the Buffalo Stamping Plant 
in its latest round of closings because of its proximity and 
collaboration with Ford's Assembly Plant in Oakville, Ontario.
    The Peace Bridge is the second busiest passenger vehicle crossing 
and the third busiest commercial crossing between the United States and 
Canada. The commerce facilitated by this bridge is absolutely critical 
to the vulnerable Western New York economy.
    The easy flow of people over the border is equally as important as 
commerce. Many of the students in my district go to universities along 
the Canadian shoreline, and Canadian students comprise a major 
component of our local colleges. Canadians support Buffalo's arts and 
culture--they visit our zoo, shop our stores, and go to our local 
theaters; they are a large percentage of the fans in the seats at 
Bills, Sabres, and Bisons games. In Western New York, crossing the 
international border is no different that crossing the 14th Street 
Bridge here in Washington, DC to get to Virginia--we do it to go to 
church, to buy groceries, and to visit our families and neighbors.
    In short, the Western Hemisphere Travel Initiative would decimate 
the economic viability and cultural and social fabric of my district. 
While I believe strongly that our first responsibility is protecting 
national security, I fail to see how requiring the use of one form of a 
passport or PASS card is more secure than the documents currently 
required for cross-border travel. It should be noted that the recent 
apprehension of a terror cell in Canada hinges on the fact a number of 
the suspects had previously been stopped and apprehended for gun-
running on the northern border--under current requirements, which do 
not require passports, these men were successfully stopped and 
apprehended.
    Additionally, the Department of Homeland Security recently cut in 
half the funding due Buffalo under the Urban Area Security Initiative. 
That loss in federal funding will have to be absorbed by the city and 
county through local taxes. So citizens of Western New York will pay 
three times for the national security of the entire nation: they will 
pay their taxes for which New Yorkers receive less from the federal 
government than they put in, they will pay raised local taxes to 
supplant the loss in federal funds for this high threat city, and they 
will pay a border tax for simply living along our peaceful border with 
Canada. Why should citizens in border communities bear the economic 
burden of this policy; if this is truly a matter of ``national 
security'' then the entire cost for this program should be borne by the 
U.S. Treasury, not solely by border communities like ours.
    The Department of Homeland Security and the Department of State 
argue that the WHTI is mandated in the Intelligence Reform bill, passed 
two Decembers ago. But the language in the bill directs DHS and State 
to ``develop and implement a plan as expeditiously as possible to 
require a passport or other document, or combination of documents, 
deemed by the Secretary of Homeland Security to be sufficient to denote 
identity and citizenship, for all travel into the United States.'' 
Additionally, DHS should conduct a cost-benefit analysis on a plan as 
significant as this in order to ensure that our community does not 
suffer from the strangling of legitimate trade and travel with Canada.
    The most efficient and effective flow of traffic between the U.S. 
and Canada is of paramount importance for the national security, 
economic development and life quality of my district. The proposed 
passport requirement, as well as the PASS cards, will unnecessarily 
create delays that will stifle our local economy and place an undue 
burden on my constituents.
    Given the hundreds of years of excellent cross border relations 
between the United States and Canada and the strong interdependence for 
commerce, culture, entertainment, universities and quality of life, I 
continue to believe that the WHTI should be waived until the 
establishment and enactment of a new form of identification that will 
prioritize faster and less expensive passage instead of the slower and 
cost-prohibitive proposal on the table today.
    Thank you again, I look forward to working with all of you on this 
issue.

                               __________

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary

    I am pleased that the Subcommittee is holding this important 
hearing on the Western Hemisphere Travel Initiative (WHTI). This 
program has not been implemented yet, but already numerous problems and 
controversies have arisen regarding how, when and for whom new secure 
border crossing documents will be required crossing our borders.
    Widespread concern has grown over the impact WHTI will have over 
trade and tourism, particularly as it affects trade and tourism on the 
U.S.-Canadian border. This border is one of the largest, most peaceful 
and profitable borders in the world. It is the conduit for $1.2 billion 
in trade every day, and it supports 5.2 million jobs. Canadians spend 
over $10 billion in the United States annually, with 75% of its 
tourists crossing land borders into the U.S. Border communities are not 
the only one's that stand to lose from Canadian tourism--California, 
Florida and Nevada are the most popular spending destinations for 
Canadians.
    However, it does appear that border communities could suffer 
acutely. As home to the two busiest border crossings in the country, my 
home state of Michigan relies heavily on Canadian tourism, travel, and 
trade. Each year 1 million Canadians travel to Michigan, with an impact 
on the state's economy to the tune of more than $166 million. 
Approximately 200,000 vehicles cross between the U.S. and Canada every 
day carrying tourists, manufacturing goods and farm products. The 
Ambassador Bridge alone supports 25 percent of U.S.-Canadian trade, and 
in 2004, U.S. automotive trade with Canada was $116 billion.
    Michigan could lose more than $100 million in revenue if 
spontaneous travel to Canada is hindered by a complicated border 
crossing identification policy. The Detroit Regional Chamber estimates 
that the Detroit metropolitan area could lose $86 million annually due 
to reduced levels of Canadian travel into our city for shopping, 
sporting events, and to visit restaurants or cultural attractions. In 
light of the significant manufacturing job losses Michigan has 
suffered, we are obviously seriously concerned about any further blows 
to the economy.
    Many questions remain about this program: Is it cost efficient and 
practical to issue new border crossing cards for the Canadian border 
when modified driver's licenses under the enhanced REAL ID standards 
may serve the same purpose? Are passports the best option despite the 
high price and low percentage of Americans who hold passports? What is 
a realistic time frame for rolling out a new program given the 
complicated logistics of picking an identity document, its features, 
and manufacturer, and ensuring that readers can be identified and ready 
to use seamlessly? Most importantly, how can the federal government 
move forward with this program without understanding the true costs and 
economic impacts involved?
    I believe that the Administration must move forward with conducting 
comprehensive cost-benefit analysis considering our state and national 
reliance on travel, tourism and trade with Canada. Given the current 
economic climate, this cost-benefit analysis would provide a thorough 
explanation as to how WHTI will impact the economy. In addition, such 
an analysis would provide an explanation of the cost of creating and 
obtaining new travel documents and equipping all ports of entry with 
new card readers. Overall, this analysis would provide further guidance 
to ensure that the implementation of the WHTI would have the most 
benefit and least detriment to our state's economy.
    It is clear that Congress and the Administration must investigate 
these issues thoroughly to ensure that we can meet our homeland 
security objectives while protecting our economy from detrimental 
impacts in trade and tourism. I look forward to hearing the testimony 
of today's witnesses as we seek to achieve that goal.

                               __________

   Prepared Statement of the Honorable Ted Poe, a Representative in 
                    Congress from the State of Texas

    I believe the WHTI is an unnecessary bureaucratic program and 
reduces our security at our borders.
    The Intelligence Reform and Terrorism Prevention Act of 2004 
mandated that the U.S. Secretaries of Homeland Security and State 
develop and implement a plan to require U.S. citizens and foreign 
nationals to present a passport or other appropriate secure identity 
and citizenship documentation when entering the United States.
    For many years U.S. citizens, and some citizens of other countries 
in the Western Hemisphere including Canadians, have not been required 
to present a passport or other specific forms of secure identification 
to enter the U.S. Instead, many were admitted by verbally stating they 
were from a country that didn't require documentation or by presenting 
a wide variety of less secure documentation.
    The 9/11 Commission in their Report highlighted that terrorists 
will seek to exploit our vulnerabilities. Closing the loophole that 
allowed people to enter the U.S. without documentation of citizenship 
was one such vulnerability and I'm glad Congress took action on this 
issue. However, it seems as if we are going further and further away 
from the intent of this legislation due to the bureaucracy within the 
Department of Homeland Security and The State Department who are 
implementing this law through the Western Hemisphere Travel Initiative.
    The Western Hemisphere Travel Initiative continues to spend large 
amounts of time and taxpayer money to come up with all kinds of 
``alternative documents'' to comply with this law. Congress also has 
held numerous hearings on this matter. The answer today is why? We 
already have a document that is being used today for the very reason of 
identifying citizenship and identity from those who travel to and from 
the United States from countries outside the Western Hemisphere. It is 
called a passport.
    The Department of Homeland Security and Department of State 
continue to say a passport is the ``gold standard'' of identity and 
citizenship documents because of its security features. Yet, these 
agencies continue to promote such acronyms as the PASS card, BCC, 
SENTRI, NEXUS or FAST--all documents under consideration for acceptance 
into the travel initiative to satisfy a select constituency; mainly 
those traveling to and from Canada. At a time when we are already 
overburdening our border agents, why give them even more documents to 
inspect or run the risk for more fraud?
    People will give a number of arguments against a passport only 
approach, some of the common ones are that it would cost too much. To 
that I say that having a passport costs less than $10 a year. Maybe it 
could cost even less if we weren't paying for a redundant bureaucracy 
trying to undermine its universal use. I also hear that it will stifle 
travel and commerce; leading to long lines at the border. Now I've been 
to the border numerous times and have seen the border agents presented 
with literally thousands of different documents. How does a policy of 
accepting one document slow commerce as opposed to a policy of 
accepting numerous documents? It doesn't. In recent testimony given 
before the Senate Committee on Foreign Relations, Paul Rosenzweig, DHS' 
Acting Assistant Secretary for Policy Development said, ``Currently, 
there are thousands of different documents that a traveler can present 
to CBP officers when attempting to enter the United States, creating a 
tremendous potential for fraud. Standardized documents eliminate the 
time-consuming, manual process of reviewing and validating a host of 
distinct, and sometimes illegible and unverifiable, birth certificates 
and other identity documents.'' As we bring more documents into use, we 
have to train our border agents in them and we increase the chance of 
fraud associated with them.
    Instead of spending precious resources creating discriminatory 
documents that only benefit one nation and its travelers, we should use 
our resources to expand passport use into the U.S. VISIT program by 
using its security features to enable automated reading and vetting of 
the information so we know who is entering and departing our country. 
With the recent arrests over the weekend of suspected terrorists 
operating in Canada, can we really afford to allow a program to 
continue that leaves our country more vulnerable to attack?

                                 <all>

</pre></body></html>
